<html>
<title> - STRENGTHENING EDUCATION RESEARCH AND PRIVACY PROTECTIONS TO BETTER SERVE STUDENTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


              STRENGTHENING EDUCATION RESEARCH AND PRIVACY
                  PROTECTIONS TO BETTER SERVE STUDENTS

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 22, 2016

                               __________

                           Serial No. 114-45

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                              ____________
                              
                              
                        U.S. GOVERNMENT PUBLISHING OFFICE
99-465 PDF                      WASHINGTON : 2016                        
               
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0c7d0cfe0c3d5d3d4c8c5ccd08ec3cfcd8e">[email&#160;protected]</a>  
               
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 22, 2016...................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................    05

Statement of Witnesses:
    Campbell, Neil, Mr., Director, Next Generation Reforms, 
      Foundation for Excellence in Education, SC.................    14
        Prepared statement of....................................    16
    Hannaway, Jane, Ms., Professor, McCourt School, Georgetown 
      University.................................................    18
        Prepared statement of....................................    20
    Stickland, Rachael, Ms., Co-Founder and Co-Chair, Parent 
      Coalition for Student Privacy..............................    07
        Prepared statement of....................................    09
    Swiggum, Robert, Mr., Deputy Superintendent of Technology 
      Services, Georgia Department of Education..................    26
        Prepared statement of....................................    28

 
                    STRENGTHENING EDUCATION RESEARCH
                   AND PRIVACY PROTECTIONS TO BETTER
                             SERVE STUDENTS

                              ----------                              


                        Tuesday, March 22, 2016

                        House of Representatives

                Committee on Education and the Workforce

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in Room 
2175 Rayburn House Office Building. Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Wilson, Foxx, Roe, 
Thompson, Walberg, Salmon, Guthrie, Rokita, Heck, Messer, 
Byrne, Brat, Carter, Bishop, Grothman, Curbelo, Stefanik, 
Allen, Scott, Fudge, Polis, Bonamici, Pocan, Takano, Jeffries, 
Clark, Adams, and DeSaulnier.
    Staff Present: Janelle Belland, Coalitions and Members 
Services Coordinator; Tyler Hernandez, Deputy Communications 
Director; Amy Raaf Jones, Director of Education and Human 
Resources Policy; Nancy Locke, Chief Clerk; Dominique McKay, 
Deputy Press Secretary; Brian Newell, Communications Director; 
Krisann Pearce, General Counsel; Alex Ricci, Legislative 
Assistant; Mandy Schaumburg, Education Deputy Director and 
Senior Counsel; Alissa Strawcutter, Deputy Clerk; Juliane 
Sullivan, Staff Director; Leslie Tatum, Professional Staff 
Member; Sheariah Yousefi, Legislative Assistant, Tylease Alli, 
Minority Clerk/Intern and Fellow Coordinator; Austin Barbera, 
Minority Staff Assistant; Jacque Chevalier, Minority Senior 
Education Policy Advisor; Denise Forte, Minority Staff 
Director; Alexander Payne, Minority Education Policy Advisor; 
Veronique Pluviose, Minority Civil Rights Counsel; Rayna Reid, 
Minority Education Policy Counsel; Saloni Sharma, Minority 
Press Assistant.
    Chairman Kline. A quorum being present, the Committee on 
Education and the Workforce will come to order. Good morning. I 
want to extend a warm welcome to our distinguished panel of 
witnesses. Thank you for joining us to share your thoughts and 
expertise on a number of complex yet important issues affecting 
students across the country.
    Education research has long played an important role in our 
Nation's classrooms. States and school districts use research 
to identify teaching and learning strategies that improve 
classroom instruction and those that do not.
    Education research also provides parents, teachers, school 
leaders, and policymakers with the information they need to 
determine if Federal programs are delivering real results for 
students and taxpayers.
    For more than 40 years, the Federal Government has 
partnered with the private sector and State and local leaders 
to help facilitate this research. The partnership was 
reaffirmed in 2002 when Congress passed the Education Sciences 
Reform Act. The law established the Institute of Education 
Sciences to take the lead on gathering information about 
educational progress, conducting research on teacher practices, 
and evaluating the quality of Federal programs.
    The Institute has helped provide greater transparency and 
accountability and has helped implement successful education 
practices in countless schools.
    That does not mean there are not areas for improvement. In 
fact, the nonpartisan Government Accountability Office has 
cited several weaknesses Congress needs to address, including 
duplicative research and a failure to disseminate key 
information in a timely manner.
    Fortunately, because of the work of this committee, we are 
well on our way to reforming the law. In the spring of 2014, 
the committee passed and the House later adopted by voice vote 
the bipartisan Strengthening Education Through Research Act.
    The legislation included a number of important reforms, 
such as streamlining the Federal education research system, 
requiring regular evaluations of research programs, and 
strengthening the autonomy of Federal researchers to ensure 
they are not subject to political bias and interference.
    Many of us were disappointed when the Senate was unable to 
push the bill across the finish line in the last Congress. 
However, we are pleased the Senate has taken action on nearly 
identical legislation this year, and it is my hope we can 
complete this work this year.
    Now, any effort to improve education research should also 
strengthen student privacy protections. New technology has made 
it easier to analyze student information and develop new ways 
to improve learning, but it has also left parents and students 
more vulnerable to the misuse of student information.
    To make matters worse, student privacy protections are 
woefully outdated. Long before online learning tools and Cloud-
based computing systems were the norm, Congress passed the 
Family Educational Rights and Privacy Act, FERPA. The intent of 
the law was to safeguard student privacy and give parents the 
peace of mind that their children's academic records and 
personal information were safe and secure.
    That was 1974, and a lot has changed since then. More 
student information is being collected and shared than ever 
before, often without the knowledge of parents and school 
officials.
    A proposal introduced by Republicans and Democrats will 
bring the law into the 21st century. Among other reforms, the 
Student Privacy Protection Act will provide greater clarity and 
transparency over what information schools can use, collect, 
and share for educational purposes.
    The legislation will also strengthen the right of parents 
to prevent the sharing of their children's information and 
enhance communication between parents and school leaders.
    Both proposals, the Strengthening Education Through 
Research Act and the Student Privacy Protection Act, reflect 
the hard work of members on both sides of the aisle, 
particularly the ranking member of the K-12 Subcommittee, 
Congresswoman Fudge; a former colleague from New York, Carolyn 
McCarthy; and last, but certainly not least, Congressman Todd 
Rokita, the chairman of the K-12 Subcommittee who remains a 
strong leader on these vital issues.
    Improving education remains a leading priority for our 
committee, and it is my hope we can take additional steps to 
improve education by enhancing education research and 
strengthening student privacy protections.
    Before I recognize Ranking Member Scott, I want to make 
sure that I express my condolences, and I am sure our 
condolences, to those who lost loved ones in the Belgium 
terrorist attack. Our thoughts and prayers are with the victims 
and their families during this very difficult time.
    I now recognize Ranking Member Bobby Scott for his opening 
remarks.
    [The information follows:]

            Prepared Statement of Hon. John Kline, Chairman 
                Committee on Education and the Workforce

    Good morning. I want to extend a warm welcome to our distinguished 
panel of witnesses. Thank you for joining us to share your thoughts and 
expertise on a number of complex yet important issues affecting 
students across the country.
    Education research has long played an important role in our 
nation's classrooms. States and school districts use research to 
identify teaching and learning strategies that improve classroom 
instruction and those that don't. Education research also provides 
parents, teachers, school leaders, and policymakers with the 
information they need to determine if federal programs are delivering 
real results for students and taxpayers.
    For more than 40 years, the federal government has partnered with 
the private sector and state and local leaders to help facilitate this 
research. The partnership was reaffirmed in 2002 when Congress passed 
the Education Sciences Reform Act. The law established the Institute of 
Education Sciences to take the lead on gathering information about 
educational progress, conducting research on teaching practices, and 
evaluating the quality of federal programs. The institute has helped 
provide greater transparency and accountability and has helped 
implement successful education practices in countless schools.
    But that doesn't mean there aren't areas for improvement. In fact, 
the nonpartisan Government Accountability Office has cited several 
weaknesses Congress needs to address, including duplicative research 
and a failure to disseminate key information in a timely manner. 
Fortunately, because of the work of this committee, we are well on our 
way to reforming the law. In the spring of 2014, the committee passed - 
and the House later adopted by voice vote - the bipartisan 
Strengthening Education through Research Act.
    The legislation included a number of important reforms, such as 
streamlining the federal education research system, requiring regular 
evaluations of research programs, and strengthening the autonomy of 
federal researchers to ensure they are not subject to political bias 
and interference. Many of us were disappointed the Senate was unable to 
push the bill across the finish line in the last Congress. However, 
we're pleased the Senate has taken action on nearly identical 
legislation this Congress, and it's my hope we can complete this work 
this year.
    Now, any effort to improve education research should also 
strengthen student privacy protections. New technology has made it 
easier to analyze student information and develop new ways to improve 
learning, but it has also left parents and students more vulnerable to 
the misuse of student information. To make matters worse, student 
privacy protections are woefully outdated.
    Long before online learning tools and cloud-based computing systems 
were the norm, Congress passed the Family Educational Rights and 
Privacy Act, or FERPA. The intent of the law was to safeguard student 
privacy and give parents the peace of mind that their children's 
academic records and personal information were safe and secure. But 
that was 1974, and a lot has changed since then. More student 
information is being collected and shared than ever before, often 
without the knowledge of parents and school officials.
    A proposal introduced by Republicans and Democrats will bring the 
law into the twenty-first century. Among other reforms, the Student 
Privacy Protection Act will provide greater clarity and transparency 
over what information schools can use, collect, and share for 
educational purposes. The legislation will also strengthen the right of 
parents to prevent the sharing of their children's information and 
enhance communication between parents and school leaders.
    Both proposals - the Strengthening Education through Research Act 
and the Student Privacy Protection Act - reflect the hard work of 
members from both sides of the aisle, particularly the ranking member 
of the K-12 subcommittee, Congresswoman Fudge, our former colleague 
from New York, Carolyn McCarthy, and last but certainly not least, 
Congressman Todd Rokita, the chairman of the K-12 subcommittee, who 
remains a strong leader on these vital issues.
    Improving education remains a leading priority for our committee, 
and it's my hope we can take additional steps to improve education by 
enhancing education research and strengthening student privacy 
protections. I look forward to today's discussion, learning more about 
these issues, and ultimately moving forward with commonsense reforms 
that will make a positive difference in the lives of our nation's 
students and families. With that, I will recognize Ranking Member Bobby 
Scott for his opening remarks.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
recognizing our friends in Belgium. And I want to thank our 
panelists for being with us today to testify before the 
committee.
    Mr. Chairman, gone are the days when education was 
flashcards and workbooks. Today's students use electronic 
tablets, smartphones, apps, online study tools, and various 
other technological resources to aid them in their studies.
    Teachers have the ability to extend learning beyond the 
classroom using digital learning platforms to share multimedia 
resources and engage parents in their children's learning.
    Educational technology generates information that can be 
instrumental in improving a student's learning experience. The 
data from these tools allow teachers to more accurately assess 
student progress and provide interventions to ensure the 
children are learning. Data can also assist schools in making 
district strategy and curriculum decisions.
    Many States now use longitudinal data systems to link 
student achievement data from pre-K through grade 12, even past 
college and into the workforce. This enables district and State 
leaders to make informed data-driven policy choices.
    The Institute of Education Sciences, the IES, also helps to 
provide education practitioners with scientifically sound, 
relevant, and accessible findings that can inform decision-
making and educational practice.
    Through the delivery of the National Assessment of 
Educational Progress and various research projects and surveys, 
even randomized control trials and provision of technical 
assistance to States, and dissemination of research, IES 
provides a novel approach to harnessing data collection and 
educational technology to improve educational practice and 
systems management.
    While the use of technology in education continues to 
expand, we must take the necessary steps to protect the privacy 
and data of students and their families. The Family Educational 
Rights and Privacy Act was passed 40 years ago to address 
privacy concerns in a time of paper student records.
    Innovative educational technology tools capture large 
amounts of student data, and many districts now contract with 
private vendors to use online, Cloud-based storage for 
students.
    With this new technology, Congress must ensure privacy of 
the new data. Congress must ensure that student data is being 
used only for defined educational purposes, and cannot be sold 
or used for private companies' financial gain. Parents should 
know who has access to student data and how it is being used 
and protected. Teachers and school leaders need to understand 
how to properly protect student information while taking 
advantage of powerful digital learning tools at their disposal.
    As we expand the student privacy and improve educational 
research and data collection, we need to make sure that we do 
not compromise on privacy. Students, teachers, and parents need 
to feel comfortable that student data is protected and at the 
same time, we need to be careful not to limit the advancement 
of new educational technologies or the breadth of ways data can 
be used to improve student performance.
    I look forward to hearing from our witnesses on how this 
can be done and other relevant issues on this topic.
    Thank you, Mr. Chairman.
    [The information follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Thank you Chairman Kline for holding this hearing, and thank you to 
the panelists for taking time out of your day to testify before the 
Committee.
    Gone are the days when education was flashcards and workbooks. 
Today's students use electronic tablets and smartphones, apps, online 
study tools, and various other technological resources to aid them in 
their studies. Teachers have the ability to extend learning beyond the 
classroom using digital learning platforms to share multimedia 
resources and engage parents in their children's learning.
    Educational technology generates information that can be 
instrumental in improving a student's learning experience. The data 
from these tools allow teachers to more accurately assess student 
progress and provide
    interventions to ensure children are learning. Data can also assist 
schools in making district strategy and curriculum decisions. Many 
states now use longitudinal data systems to link student achievement 
data from pre-K through grade 12, or even past college and into the 
workforce. This enables district and state leaders to make informed, 
data-driven policy choices.
    The Institute of Education Sciences (IES) also helps provide 
education practitioners with scientifically-sound, relevant, and 
accessible findings that can inform decision-making and instructional 
practice. Through the delivery of the National Assessment of 
Educational Progress, various research projects and surveys, randomized 
control trials, provision of technical assistance to states, and 
dissemination of research, IES provides a novel approach to harnessing 
data collection and educational technology to improve instructional 
practice and systems management.
    While the use of technology in education continues to expand, we 
must take the necessary steps to protect the privacy and data of 
students and their families. The Family Educational Rights and Privacy 
Act was enacted 40 years ago to address privacy concerns in a time of 
paper student records. Innovative educational technology tools capture 
large amounts of student data, and many districts now contract with 
private vendors to use online, cloud-based storage for students.
    Congress must ensure student data is being used only for defined 
educational purposes and cannot be sold or used for private companies' 
financial gain. Parents should know who has access to student data and 
how it is being used and protected. And teachers and school leaders 
need to understand how to properly protect student information while 
taking advantage of the powerful digital learning tools at their 
disposal.
    As we examine student privacy and improve education research and 
data collection, we need to balance privacy with innovation. Students, 
teachers, and parents need to feel comfortable that student data is 
protected. At the same time, we need to be careful not to limit the 
advancement of new educational technologies or the breadth of ways data 
can be used to improve student performance.
    I look forward to hearing from our witnesses on this balancing act 
and other relevant issues regarding these topics. Mr. Chairman, I yield 
back.
                                 ______
                                 
    Chairman Kline. I thank the gentleman. Pursuant to 
Committee Rule 7(c), all members will be permitted to submit 
written statements to be included in the permanent hearing 
record. Without objection, the hearing record will remain open 
for 14 days to allow such statements and other extraneous 
material referenced during the hearing to be submitted to the 
official hearing record.
    Before I introduce our distinguished witnesses, I want to 
make sure they know and all here in the room that as is usual 
here in the House of Representatives, we have multiple hearings 
going on. This is one of those times where there are a number 
of members of this committee, including myself, who are also 
members of the House Armed Services Committee, and the 
Secretary of Defense and the chairman of the Joint Chiefs of 
Staff are testifying there on the morning of the horrific 
attack in Brussels.
    Even more turmoil than usual as members are moving back and 
forth between those hearings, and I want to make sure you know 
that in a little while, I also am going to have to leave and 
yield the gavel, I think, to Chairman Rokita.
    Okay, let me introduce our witnesses. Ms. Rachael Stickland 
serves as the co-founder and co-chair for the Parent Coalition 
for Student Privacy in Littleton, Colorado. Ms. Stickland is 
also the founder of School Belongs to the Children, an 
organization that protects student privacy and advocates for 
parental rights in Colorado.
    Mr. Neil Campbell serves as director for Next Generation 
Reforms at the Foundation for Excellence in Education here in 
Washington, D.C. Previous to this, Mr. Campbell served as the 
director of Strategic Initiatives at Education Elements, an 
education technology company that helps schools design and 
implement personalized learning solutions.
    Dr. Jane Hannaway serves as professor at McCourt School of 
Public Policy at Georgetown University here in Washington, D.C. 
Her work focuses on the effects of education reforms on student 
outcomes, as well as on school policies and practices.
    Mr. Robert Swiggum serves as the deputy superintendent of 
Technology Services at the Georgia Department of Education. Mr. 
Swiggum leads the technical services data collections, 
instructional technology, and virtual school functions for the 
Department.
    Let me now ask our witnesses to stand, and please raise 
your right hand.
    [Witnesses sworn.]
    Chairman Kline. Let the record reflect the witnesses 
answered in the affirmative, as they always do, I might add.
    Before I recognize each of you to provide your testimony, 
let me remind you of the lighting system. It is pretty 
straightforward. You get a green light, a yellow light, when 
you have 1 minute to go, and then a red light. When you get the 
red light, please try to expeditiously wrap up your testimony.
    We have big clocks in the back of the room, so we are 
watching that from here. I am loath to gavel down a witness 
when they are giving testimony, but with four witnesses and 
members who are going to want to ask questions, I would ask 
that you try to wrap it up at 5 minutes. Then as always, I will 
try to keep our members very tightly to the 5-minute rule. 
Because those big clocks are there, we have no excuses. We can 
see it.
    Ms. Stickland, you are recognized.

TESTIMONY OF RACHAEL STICKLAND, CO-FOUNDER AND CO-CHAIR, PARENT 
                 COALITION FOR STUDENT PRIVACY

    Ms. Stickland. Good morning, Chairman Kline, Ranking Member 
Scott, and distinguished members of the committee. I would like 
to thank you for the opportunity to testify today on behalf of 
parents concerned about strengthening privacy protections to 
better serve students.
    My name is Rachael Stickland. I am a parent of two public 
school children in Colorado, and I am co-founder and co-chair 
of the Parent Coalition for Student Privacy, which represents a 
wide coalition of parents from across the Nation, including 
Democrats, Republicans, and Independents, public school parents 
and home schoolers, professionals, and stay-at-home mothers.
    We receive no funding from special interests, and we are 
united in our effort to protect our children and their privacy.
    I would like to focus my testimony today on the need to 
strengthen Federal educational law to meet the challenges of 
our modern educational system and to address current threats to 
student privacy.
    Today's schools collect more information on students than 
most parents realize. While some was required by No Child Left 
Behind and State statutes, much of the data today actually 
appears to transcend from legal requirements. Beyond transcript 
type data, like student names, addresses, courses taken, and 
grades earned, schools also collect hundreds of pieces of 
information, like disabilities and interventions, medical 
information, disciplinary incidents, scores on standardized 
exams, and recommendations for grade retention.
    Once information is collected at the local level, much of 
it is pushed up to the State to be maintained in the State unit 
record system called the Statewide Longitudinal Data System or 
SLDS, or the P-20W, which stands for Preschool Through 
Workforce.
    These unit record systems have been funded partly through 
Federal grants. Forty-seven States, in fact, have received at 
least one SLDS grant. In my State of Colorado, our SLDS has the 
capability to maintain approximately 400 data elements on each 
individual child, and will eventually link from the Department 
of Education to five other State agencies, including Human 
Services, Corrections, and Public Safety.
    Parents find this very troubling because the individually 
identifiable life information that is so neatly organized in 
these systems effectively become lifelong dossiers, and if or 
when compromised, could give away the entire life history of 
every student in a State.
    SLDS's purported benefits are to help States, districts, 
schools, and educators to make data-informed decisions as well 
as to facilitate research to increase student achievement and 
close achievement gaps.
    Parents don't disagree with the premise that data can and 
should be used for purposes to help advance their children's 
education. However, availability of a dataset as rich as SLDS 
quickly turns into the go-to data mart for unauthorized as well 
as authorized access by other institutions, organizations, and 
State agencies.
    While there have been no public reports of large-scale 
breaches of SLDS, higher education unit record systems are 
routine targets of hackers. A 2014 breach affected 300,000 
current and former students and staff of the University of 
Maryland, and just last month, 80,000 UC Berkeley students, 
alumni, and faculty had their information compromised.
    Also last month a California organization petitioned the 
courts for access to information held in the state SLDS. The 
Federal judge ruled in favor of the plaintiff and ordered the 
release of records for 10 million California students, dating 
back to 2008.
    According to media reports, highly sensitive information on 
every child in a State's education system were to be made 
available to the plaintiff's legal team, including student 
names, addresses, disciplinary records, grades, test scores, 
and even details such as pregnancy, addiction, and criminal 
history.
    The judge backtracked on her decision slightly this month 
but only because of parental backlash. It is also worth nothing 
that the judge has since suggested modernizing FERPA.
    As Congress weighs competing interests in the student 
privacy debate, parents in our coalition urge you to always 
first think of the individual child. Allowing or incentivizing 
the government to track autonomous individuals through most of 
their lives in the name of research has speculative benefits at 
best and can lead to profiling, stereotyping, and 
discrimination that can hinder a child's potential for growth 
and success.
    Should Congress continue supporting a development and 
expansion of SLDS through Federal grants? And as you 
contemplate student privacy as a legislative matter, please 
consider our coalition's recommendations outlined in my written 
testimony, which includes increased transparency, citizen 
oversight of SLDS, a ban on commercial uses of student 
information, strong security protections, increased parental 
and student rights, and strong enforcement of the law.
    Thank you again for the opportunity to participate in this 
hearing today and for your consideration of my testimony.
    [The statement of Ms. Stickland follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Kline. Thank you. Mr. Campbell, you are recognized 
for 5 minutes.

TESTIMONY OF NEIL CAMPBELL, DIRECTOR, NEXT GENERATION REFORMS, 
             FOUNDATION FOR EXCELLENCE IN EDUCATION

    Mr. Campbell. Thank you, Chairman Kline, Ranking Member 
Scott, and members of the committee. Thank you for inviting me 
to testify today.
    I am the policy director for Next Generation Reforms at the 
Foundation for Excellence in Education. We are an education 
reform organization that designs and promotes education policy 
through the development of model policies, implementation 
strategies, and public outreach.
    My work at the Foundation centers on State policies that 
encourage and support high-quality personalized and blended 
learning, from course access policies that ensure students have 
access to a range of advanced and elective courses their 
schools may not be able to offer, to supporting States piloting 
innovative school models, to developing privacy policies that 
include strong governance, transparency, and security 
protections.
    The model private policy we developed was used as a 
starting point last year by legislators in Georgia. The 
resulting bill unanimously passed the House and Senate there 
before being signed into law.
    This new law requires an inventory of data the State 
collects, accelerates the timing for parents to be able to 
access and review their child's education record, avoids 
unnecessary data collection, and requires the development of a 
data security plan for the State data system.
    Effective privacy policies require a delicate balance. 
Finding an intersection that respects parents' desire to 
protect information about their children acknowledges the 
capacity of State and local education agencies and allows for 
innovative practices in schools.
    That third point about allowing for innovation is critical 
in two ways. First, that teachers and leaders are able to 
effectively utilize technology in their schools. School systems 
need to be able to contract with service providers for 
educational software, online grade books, or parent 
communication tools that meet their needs and comply with 
applicable Federal and State privacy laws.
    Second, that researchers, after strong review processes and 
subject to confidentiality and security requirements, are able 
to access data needed to evaluate the effectiveness of policies 
and classroom practices.
    One of the policies our Foundation has worked on 
extensively deals with K-3 reading. By the end of third grade, 
students must make the transition from learning to read to 
reading to learn. If they are not ready to do that, it becomes 
continually more difficult to keep up with the science, 
history, literature, and even math their teachers cover in 
class.
    Longitudinal student level research showed that nearly 90 
percent of students who failed to earn a high school diploma 
were struggling readers in third grade. These and many related 
research insights served as a basis for efforts like the Annie 
E. Casey Foundation led Campaign for Grade Level Reading and 
comprehensive reading policies in States like Florida, 
Mississippi, and Colorado. These policies required districts to 
identify struggling readers early, notify parents if children 
have reading difficulties, and provide intensive interventions 
and supports.
    Without the ability to study student level longitudinal 
data, it would not have been possible to reach the same 
conclusions and much harder to build the support for early 
identification and intervention. Researchers could identify the 
reading difficulties of dropouts but not that reading in third 
grade was such a critical gateway for those students.
    Without subsequent research, teachers and school leaders 
would not have critical information needed to improve their 
reading performance of today's students, what interventions are 
most likely to succeed, for which students, when do they need 
to begin, how long do they need to continue.
    As important as research is, we know it is even more 
important to protect students' privacy. We are pleased to see 
the proposed updates to the Education Sciences Reform Act 
worked to find this balance and includes strong requirements 
before researchers can access student level data. Requirements 
that proposals detail the research intent for data and how the 
confidentiality of data about students will be protected are 
valuable improvements.
    Thank you again for the opportunity to testify today, and I 
would be happy to answer any questions after the other 
speakers.
    [The statement of Mr. Campbell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rokita. [Presiding] Thank you for your testimony. Dr. 
Hannaway, you are recognized for 5 minutes.

    TESTIMONY OF JANE HANNAWAY, PROFESSOR, McCOURT SCHOOL, 
                     GEORGETOWN UNIVERSITY

    Ms. Hannaway. Chairman Kline, Ranking Member Scott, and 
members of the committee, thank you for inviting me to appear 
today to discuss education research and student privacy 
concerns.
    I would like to make two main points in my comments. First, 
large-scale education data, especially individual level 
administrative data, make possible important new insights into 
policies and practices that promote student learning and later 
educational and employment outcomes.
    Second, provisions that protect the confidentiality of data 
about individual students are essential. With appropriate 
strategies, I see no necessarily inherent conflict between 
research using individual level data and protection of student 
privacy. Indeed, I would argue that appropriate safeguards 
foster a healthy environment for research productivity.
    My comments today are based on over a decade of experience 
conducting research using individual level longitudinal State 
administrative data and leading a highly productive national 
research center dedicated to working with such data.
    First, let me talk about the research advantages, and then 
I'll talk about student privacy. Almost every State has 
developed a longitudinal individual level database. These data 
systems have substantive, technical, and efficiency virtues.
    Let me start with the efficiency virtues. Because the data 
are existing working files, created, maintained, and used by 
the State for administrative purposes, they are readily 
available for approved research purposes.
    Researchers are thus not required to undertake costly and 
time-consuming data collection, and because these State data 
files are used by the State, the data quality is very high. 
Having data already in hand means that turnaround time for 
research, giving feedback to policymakers of new policies, is 
short, allowing decisions to be made about whether to 
discontinue, modify, or continue particular policies in near 
real time.
    The administrative files also have substantive advantages. 
They include data on all students, all teachers, in each State 
over a number of years. Data on students of interest for 
particular interventions, for particular studies, can easily be 
pulled out.
    Because these longitudinal data systems extend for long 
periods of time, researchers can capture difficult to study 
populations, such as highly mobile students, long-term 
consequences of a program or policy shift, and the effects of 
students' past experiences on current performance.
    For example, an intervention at eighth grade may have 
relatively short-term advantages in terms of academic results, 
but longer term effects on, say, high school graduation and 
college attendance. Collecting this data to answer many of 
these questions would just be prohibitively expensive.
    Longitudinal data also has a number of analytic advantages 
that strengthen the credibility of research findings. They 
allow statistical strategies that allow us to come to 
conclusions that have causal implications.
    The advantages of these data are substantively expanded 
when they are linked with later employment and postsecondary 
education data. In addition to the technical and substantive 
policy implications, the availability of these data have led to 
important human capital effects on the research enterprise.
    It's impossible to pick up any economics, public policy, 
education, or other social science journal without seeing 
research using such data. The best and the brightest in social 
science are now working on education issues, something that was 
not common before.
    Privacy protections are important. All researchers agree 
they are important. States also put on their own filters. We 
can't just go and access this data. We have to apply to the 
State to use it. The States review whether the proposed 
research questions are important, the research plan the 
researchers have proposed, the credentials of the researchers, 
and how the data will be protected.
    All the data researchers receive are anonymized. There are 
no birth dates. There are no names. To the best of my 
knowledge--
    Mr. Rokita. Thank you, Doctor. Your time has expired. Mr. 
Swiggum, you are recognized for 5 minutes.
    Ms. Hannaway. I just want to make one more point which ----
    Mr. Rokita. Mr. Swiggum, you are recognized for 5 minutes. 
We will get to you in questioning.
    [The statement of Ms. Hannaway follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     TESTIMONY OF ROBERT SWIGGUM, DEPUTY SUPERINTENDENT OF 
      TECHNOLOGY SERVICES, GEORGIA DEPARTMENT OF EDUCATION

    Mr. Swiggum. Thank you, Chairman Rokita, Ranking Member 
Scott, and members of the committee for the opportunity to be 
here today.
    I am here to share with you the journey that Georgia has 
been on implementing and developing SLDS. The first question I 
would like to talk about is why does Georgia need an SLDS.
    To understand that, you really need to understand the make-
up of Georgia. There are 190 school districts in Georgia. Each 
one of those districts have its own student information system, 
and what people do not understand is at the end of the year, 
most of those districts delete all the information in that 
electronic system, and they refer to a ``cum file,'' which is a 
file that is kept in a file cabinet, typically in the basement 
or a file room of that school.
    Let's say you are an English Language Arts teacher, and you 
have 100 students coming into your class next year, and you 
would like to understand their reading comprehension scores. In 
order to do that without a Statewide Longitudinal Data System, 
you have to go down to that vault and check out five cum files 
at a time, you bring them back to your office, and you make 
notes. You leaf through those files, you make notes, and you 
return those five files and get another five files.
    For a teacher with 100 students, that is 20 trips down to 
that vault. That is what teachers have to do when you only have 
a paper-based system. So, longitudinally, we fixed that problem 
because we give the teachers all that information at the touch 
of a button.
    Why statewide? Statewide is because in Georgia, we have 
about a 30 percent transient rate. That means about half a 
million kids are moving around to different parts of the State, 
and without a system to track those children from district to 
district to district, what happens is a new child will move to 
a district and those cum files that are in that paper vault 
basically have to be copied and either mailed or faxed.
    What happens is the student may not get their information 
about where they are at or what practices they need to be 
educated, the teacher sits and waits for a long time to get 
that data.
    So what we did in Georgia is we basically solved that 
problem by putting all the data into one place where all the 
teachers and all the principals and the parents and the 
students can have access to it. That's why you have a Statewide 
Longitudinal Data System.
    Our solution six years ago when we started building this 
system was to take all the information they've sent us over the 
years and give it back to them, but not give it back to them in 
the format of a cum file, because that is a very hard file to 
find and analyze data.
    We gave it back to them in the form of dashboards that are 
drillable, which means you can start at a high level, see the 
areas you want to focus on, and then drill down into the 
details, so you can really help the teacher with the analytics. 
The same thing goes to the parents, the same thing goes to the 
administrators.
    We built this system with engagement from all our 
constituencies. We had focus groups comprised of teachers, 
comprised of parents, comprised of students, comprised of 
administrators, asking them what do you need this to be? We 
built the system in Georgia to meet the needs of the people in 
Georgia.
    We started off with the initial focus groups and they 
basically said what do you need us to do, and they did not want 
to have another set of passwords, another set of IDs, they did 
not want to set up more security, they sure did not want to 
send more data.
    We built the system around those needs. We delivered to 
them about 4 years ago, we actually did the first phase, and 
since then we have implemented another phase every year to what 
we have today, is 60 million hits on that system. That system 
has been used 60 million times by teachers, parents, students, 
educators.
    Our governing body is made up of district folks who come 
and decide what is going to be in that system and how it is 
going to work. We have a research arm where people can have 
access to research information, but they have to go through an 
internal review board, and they do not get that information 
unless they go through the internal review board.
    Last year, we had a privacy bill that was passed that 
further elevated the sense of security and privacy around 
students and data.
    Our outcomes, people ask me all the time, what kind of 
impact did it have? Well, in 2009, before we had LDS, we had a 
59 percent grad rate. Last year our grad rate was 78 percent. I 
am not saying SLDS did that all by itself, but I cannot help 
believe if you fill 60 million requests for information, it is 
going to have an impact on that.
    Thank you very much for this opportunity. I look forward to 
your questions.
    [The statement of Mr. Swiggum follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rokita. Thank you, Mr. Swiggum. Again, I thank all the 
witnesses. We will now move to questioning. I am going to hold 
my questions to the very end in order to accommodate my fellow 
colleagues. With that, I recognize the gentlelady from North 
Carolina for 5 minutes, Ms. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman, and thank you to our 
witnesses for being here today. Mr. Swiggum, I think we all 
agree protecting student privacy is critically important.
    One of the concerns we've heard is that by requiring some 
aggregated data to be shared with the Federal Government, 
States and local districts will hand over personally 
identifiable student data to anyone who requests it without 
scrutiny in an effort to avoid added burden or duplication.
    In your testimony, you mentioned how the State worked with 
districts to build a State data system in a way that was useful 
to them, understandable, and not duplicative of what they were 
already using.
    Can you elaborate for us on these discussions and how you 
addressed concerns about protecting data? In your opinion, is 
protecting student privacy more important than an increased 
burden?
    I want to pick up on the last comment you made about your 
graduation rate having so improved. You said you cannot 
attribute it all to the SDSL, but I would be intrigued to know 
at the end of your comments if the State itself is doing 
research to figure out if there is a cause and effect by the 
use of such data. If you would talk about protecting the data 
first.
    Mr. Swiggum. So, when we first started the system, we met 
with all our districts, and they basically were very concerned 
about the data being protected, and so what we have is a 
central repository that is housed in a hardened data center. We 
have all the security set up so that no one can get into that 
system. From a physical perspective, the data is very secure.
    From an access perspective, the way we do this is districts 
control access to their data. The district basically says here 
is my data, here is who I want to have access to the data, they 
tell us what teachers have what students. They tell us what 
principals have what schools. They tell us what district people 
have access.
    The districts actually control the security through the 
data. The State does not. We simply have the data and we follow 
the directives of the individuals in the districts. That is 
basically how we manage the security and the access of that 
data.
    As far as research on the grad rate, I am sure there is a 
lot of research being done around that. I do not have that 
detail with me right now but I could follow up and find out 
what research is being done that affects the grad rate. I just 
know if I would claim it was just LDS, there would be a lot of 
people who would have other ideas about that.
    Ms. Foxx. Well, most of us know it is very difficult to 
prove a single cause and effect in this world. Ms. Stickland, 
thank you very much for your testimony. I am very concerned 
about the ability for any government agency to be able to get 
individual information and have worked very hard to keep us 
from having individual student records here at the Federal 
level.
    I wonder if you might talk a little bit more about what 
should parents know about their students' education data, and 
how can they be involved in conversations to protect their 
students' information?
    Ms. Stickland. Thank you for the question. I would say a 
great first step is inviting parents to a hearing such as this 
and allowing our voice to be heard. We are very grateful for 
the opportunity.
    In terms of what parents should know about what's in their 
education record, I think the term ``education record'' gives 
parents a very false sense of assurance that it's low risk 
information, when in fact information in an education record 
can include medical information, disability information, in 
some SLDSs, it includes arrest and criminal type activity.
    So I think getting parents educated and involved in the 
conversation, asking their schools, their school districts, 
their school boards, and certainly members of their State 
legislatures about what data is being collected, who has access 
to it and for what purpose, when that information should be 
destroyed, and how it can be secured, are questions parents 
need to be asking, and they are starting to do so now.
    Ms. Foxx. Thank you, Mr. Chairman. I yield back.
    Mr. Rokita. I thank the gentlelady. Ranking Member Scott, 
you are recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. Ms. Hannaway, you were 
cut off and had one more point to make.
    Ms. Hannaway. Yes. The point I wanted to make is in the 10 
years that I have been involved working with this data with 
multiple researchers across the country, I do not think there 
has ever been any violation by researchers on confidentiality.
    Mr. Scott. Thank you. In your written statement, you make a 
point about the ability to opt out and the effect that might 
have on the validity of data.
    Ms. Hannaway. Yes. Researchers see this as a huge problem. 
It means the data that we would be receiving would basically 
look like Swiss cheese, and we would have no idea who was in 
and who was out, and, therefore, we wouldn't know in what ways 
and to what extent the data might be biased in terms of who is 
in the database.
    Mr. Scott. If data is collected, it is obviously always 
going to be at risk of compromise. Is there a way to collect 
data in such a way to reduce the risk of data breaches?
    Ms. Hannaway. We are on the receiving end of that data, we 
don't do the collection. The data that we received are already 
anonymized by the State, and a separate ID is created in order 
that we can track individual data points over time, but we have 
no information on who those individuals might actually be.
    Mr. Scott. Is there any excuse, Ms. Hannaway, for selling 
the data to the private sector for the purpose of marketing?
    Ms. Hannaway. I am afraid that is above my grade level. I 
am very appreciative when I get the data to work with under 
very controlled situations for research purposes.
    Mr. Scott. Does anybody have a comment on whether or not 
any of this data should be sold to private sector marketing 
firms? Mr. Campbell?
    Mr. Campbell. I think it is quite clear in existing Federal 
and State policies that it should not be, so student data is 
something that is the property of the local education agency, 
and if they partner with a service provider, that data remains 
owned by the local education agency, and has to be returned or 
deleted as that service is provided. It does not grant 
authorization to use student data for reasons other than which 
it was shared.
    If a company is providing mathematics educational software 
for a school, then they can use that student's name to provide 
information back to the teacher about how the student is doing 
as they use that product. That does not give them the right to 
use it for other purposes.
    Mr. Scott. Mr. Campbell, let me follow up. If the private 
sector--right now, the penalties for a breach, a violation of 
the law, only apply to the public school system. Should 
penalties be appropriate if the private sector by any reason 
gets the information and violates the provisions of the law?
    Mr. Campbell. I think that makes sense. That certainly has 
been something that was part of the bill that Mr. Rokita and 
Representative Fudge introduced, and is also in the proposal 
from Mr. Messer and Mr. Polis.
    The model policy we developed for the State level includes 
that as well, but it takes the approach of directly regulating 
service providers working with schools and clarifying that all 
of the data, be it the students' direct identifiers, like their 
names, or the indirect information generated as they use 
products, needs to be controlled, and that the identifiable 
information needs to be deleted at the request of a school when 
that service is done.
    Mr. Scott. Dr. Hannaway, as a researcher, can you explain 
to us how you use the data to improve education?
    Ms. Hannaway. My center alone has produced over 150 
research papers, most of which are published in peer review 
journals, high productivity rates. Some of the key issues that 
we have done a lot of work on are teacher effectiveness. I 
think that would be the dominant topic right now. I think the 
findings have triggered a lot of thinking about how to improve 
teacher effectiveness, everything from training to feedback in 
the classroom.
    Mr. Rokita. I thank the gentleman. The gentleman from 
Pennsylvania, Mr. Thompson, is recognized for 5 minutes.
    Mr. Thompson. Mr. Chairman, thank you. Members of the 
panel, thank you for being here. My first question is for Mr. 
Swiggum. In your experience, what is the best way to facilitate 
valuable conversations between parents and stakeholders on 
student privacy and educational research?
    Mr. Swiggum. What I think is the best thing is face-to-face 
meetings. I mean we started with our focus groups and we talked 
about if we are going to build something, how is it going to 
help everybody? Those face-to-face meetings are the most 
effective for what we did in Georgia because you really get 
people's opinions and then you can start designing what they 
are going to see, so rather than some abstract term, they 
actually can start seeing what will this look like, how will 
this work.
    Mr. Thompson. I assume that helps to build trust in this 
process as well.
    Mr. Swiggum. And ownership.
    Mr. Thompson. And ownership. Ms. Stickland and Mr. 
Campbell, there is no denying the importance of privacy, 
especially with the vulnerabilities that we have seen 
nationwide and internationally in just recent years.
    Certainly, the importance of data to improving the 
educational outcome, the educational process, educational 
structures. I think it was educational research that obviously 
tied the link of poverty to learning and led to Title I 
funding, and through research we hopefully continue to look at 
how we make a better investment of Title I funds to address 
poverty.
    As I travel around my congressional district, I do 
educational roundtables. I have teachers and parents and 
superintendents, and occasionally students that are interested 
to come or their parents drag them there.
    One of the things I have heard about is just some of the 
hardship of collecting data. I have already made my statement, 
data collection is important. The question is how much do we 
need? My question for you are there within the scope of data 
that is collected, are there data points or information 
collected by schools or schools are required to collect that 
are not utilized or not relevant in education research?
    Any observations in that area?
    Ms. Stickland. If I could just comment on a parent 
perspective, when parents enroll their children into school and 
they share information about their child, they do so knowing 
that the purpose of sharing that information is to help their 
child.
    I would say that very few, if any, understand that 
information is then pushed up to the State and used for 
research purposes. I think in terms of, you know, parents are 
not opposed to legitimate research on education, and certainly 
we all benefit from the products of research, but I think the 
research loophole in the existing FERPA allows for a lot of 
research that maybe does not have the purpose or intentionality 
that parents support necessarily.
    Certainly, each SLDS at a State level has different data 
elements. My State of Colorado has data elements that I would 
say parents do not feel are necessary for policymaking 
decisions and research. In fact, just recently, we have a 
school readiness law in Colorado. We have an assessment for 
that readiness law. We were able to just send aggregated data 
from the districts up to the State to show how our children are 
doing in this readiness assessment.
    I think there is a balance between what personal 
identifiable information can be shared, and then there are also 
places where we can pull back and just share aggregated data or 
anonymized the identified as well.
    Mr. Thompson. Mr. Campbell, any thoughts?
    Mr. Campbell. Well, I think a first positive step that 
States can and in many cases are taking is transparency around 
what is collected and why. The model policy that we developed 
requires that, and then also requires if there are any 
additions to the State data system or proposed additions, those 
be made publicly available for a comment period with a 
rationale as to why that information would be collected.
    I think there are definitely elements that are collected 
that are maybe not apparent as to why we would want to collect 
them, so in terms of things like disability, we want to collect 
that to make sure students are served appropriately by schools, 
so States have an oversight role to make sure that students 
with disabilities are served appropriately. That sensitive 
information needs to be collected and available.
    I think even if there is a potential for being 
uncomfortable with certain pieces of information, they can 
still serve valuable educational purposes for parents and to 
make sure kids are served properly.
    Mr. Thompson. I think that circles back to Mr. Swiggum's 
comment about face-to-face and building trust and building 
ownership. Thank you, panel. Thank you, Chairman.
    Mr. Rokita. I thank the gentleman. The gentleman from 
Colorado, Mr. Polis, is recognized for 5 minutes.
    Mr. Polis. Thank you, Mr. Chairman. I want to thank our 
witnesses for taking the time to be part of this hearing today, 
and I want to express appreciation to the chair and ranking 
member for holding this hearing.
    Student data privacy is a topic that is very important to 
me and my constituents, and one that I am glad to say is not a 
partisan issue.
    Last year, I introduced the Student Digital Privacy and 
Parental Rights Act with Mr. Messer. It has been mentioned here 
during some of the questioning. Which would create new privacy 
protections for students by prohibiting ed tech vendors from 
selling student data or using it for commercial gain.
    Of course, part of the focus of the testimony was on 
education research and FERPA. I also want to acknowledge the 
responsibility of ed tech providers in guaranteeing student 
data is private and secure.
    My first question is for Ms. Stickland, and I wanted to 
address, in addition to applauding her work in Colorado, the 
importance of ensuring that Congress does not do anything to 
preempt States from raising the bar in protecting the privacy 
of students, and the importance of ensuring that legislation 
that we consider should allow for the States to go even 
further.
    Ms. Stickland. Thank you, Congressman Polis. Yes, there are 
a lot of parents across the country who are very active in 
their own communities and their own State level, and as a 
result, there are some good examples of State bills and 
actually laws that are now being passed that certainly go above 
and beyond where our current FERPA resides, in the form of the 
1974 version.
    Our coalition certainly was very pleased that your bill and 
Congressman Messer's bill also reaffirms the concern that we do 
not want to set any limits on States going further and beyond 
what might happen at the Federal level.
    Mr. Polis. Thank you. Dr. Hannaway, as you know, at the end 
of last year, we passed and the President signed the Every 
Student Succeeds Act. One of the important ways that we know 
whether schools are performing and how they should be held 
accountable is through data.
    I was hoping you could discuss briefly how reliable de-
identified data can play a constructive role in identifying 
gaps in public education, and how longitudinal data can help 
State and local leaders identify strategies for intervention 
and improving poorly performing schools.
    Ms. Hannaway. These State level individual data systems are 
literally a treasure trove. They are the complete census of 
kids who are in the State system, a complete census of 
teachers, and, therefore, there is complete flexibility in 
terms of developing research questions.
    I also want to point out that all the questions that 
researchers on the outside engage in all have to be approved by 
the State. So I could apply to Georgia or I could apply to 
Florida, North Carolina, and ask them to use their data for 
particular research questions. If the State doesn't think they 
are policy relevant or practice relevant, they will not provide 
us with the data. That is another way, a control mechanism that 
ensures these data are put to good use.
    Mr. Polis. Mr. Campbell, as you know, one of the 
challenging parts of student data privacy laws is striking a 
balance between creating the strong privacy protections that 
parents and families demand, while, of course, encouraging the 
continued innovations and promise of educational technology and 
personalized learning.
    I wanted you to briefly address how we can protect privacy 
while also allowing personalized and adaptive learning to 
continue to provide improved education for our Nation's 
children.
    Mr. Campbell. I believe a strong first step can be to 
directly regulate those that are receiving student data from 
school districts. One of the things I mentioned in my 
testimony--
    Mr. Polis. By that do you mean vendors?
    Mr. Campbell. Vendors, be they vendors or be they nonprofit 
agencies that work with schools and provide tutors. Be they 
nonprofits, software providers.
    Mr. Polis. Making sure that all of those that receive data 
are covered under the law?
    Mr. Campbell. Yes. I think that an important part of that 
is that element of balance. We have to understand the range of 
capacities of school systems across this country. Here in Metro 
D.C., there are many districts with over 100,000 students and 
significant staffs, but we have to be careful about policies 
that would affect a district where the superintendent is also 
the principal is also the basketball coach, and not put a 
burden on them that becomes unreasonable for them to be able to 
provide access to their students as well.
    Mr. Polis. Thank you, and I yield back.
    Mr. Rokita. I thank the gentleman. The gentleman from 
Georgia, Mr. Carter, is recognized for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here. Mr. Swiggum, thank you for your work in the 
State of Georgia and with the educational system. I am familiar 
with it. I appreciate the technology that you have put forward, 
but I am concerned about it.
    I wanted to ask you specifically about the SLDS. I know 
this is designed to help school districts and teachers to make 
decisions based on data-driven information.
    I am also familiar having served in the State Senate in 
Georgia that just recently there was a Senate bill introduced, 
Senate Bill 281, that was heard by the Education Committee, 
that brought forth a number of concerns. I just want to ask you 
about some of those, if I could.
    First of all, there was a concern about this putting more 
work on teachers as they were having to get more information. 
The last thing we need to be doing in any State is to put more 
work on our teachers. They are overworked now and underpaid.
    Can you comment briefly about that?
    Mr. Swiggum. One of the provisions in 281 was if a teacher 
is going to use any kind of software package, like the Doodle 
Poll, they had to actually get permission in writing from the 
parents before they could use that Doodle Poll.
    It became where teachers could not use even the simplest 
technology thing without a laborious process to notify all the 
parents and then have all the parents agree to participate, and 
if any parent decided they did not want to participate, then 
they would be teaching half the class one way, half the class 
the other. That bill didn't move forward--
    Mr. Carter. I understand. Still, I am concerned about some 
of the provisions that were brought up in the bill, and that is 
what I wanted to question you about.
    Secondly, transparency. There are a lot of the parents who 
are feeling like they need to know what the information is that 
is being collected and they do not know.
    Mr. Swiggum. Yes. The provision in there was basically 
pretty much covered by the privacy bill that we have today, 
with the inventory of all our items. The thing that we have 
today that was not covered was basically any of these software 
packages that a teacher would use in the classroom. That was 
the new thing that was introduced that would provide extra work 
for the teacher to do, and the transparency for the parents. 
The other transparency is already covered in the privacy bill 
that was passed last year.
    Mr. Carter. Okay. Let me ask you, there are a lot of 
parents who feel like no matter what you do or how hard you 
try, that you cannot keep this information anonymous. Can you 
assure me that you can do that?
    Mr. Swiggum. At the State level, we do not give out any 
data to anyone unless it is de-identified or aggregated, and 
only after they go through an internal review board. The data 
just does not go out from the State.
    Once it is de-identified, you cannot reverse engineer that. 
You can reverse engineer aggregated data.
    Mr. Carter. Speaking of aggregated data, is this something 
that is kept year after year? Does it build up? Is it wiped 
clean once a year?
    Mr. Swiggum. The Statewide Longitudinal Data System has 
actually eight years in it right now. We add to it every year 
because that is the whole concept of longitudinal data. If we 
wiped it out, we would basically have what the districts do, 
which is one year's worth of data in their systems.
    Mr. Carter. You can understand the concern of parents who 
might feel like this is a way to be able to find out learning 
abilities. I think there are rightful concerns here among the 
parents.
    Mr. Swiggum. There are, but when we pull our focus groups 
together from parents and we ask them what they want, they 
actually want a history of their kids. I have a shoebox full of 
report cards in a drawer at home. It would be great if I could 
actually see my child's transcripts for the past six years, his 
attendance rate, where he has been enrolled, and parents can 
see that now. They can see all that data.
    They are the ones who asked for the data. Of course, with 3 
million parents, there is always going to be some parents who 
do not want that. The majority of the people that talk to us, 
they want to see that data, and they want to see the 
longitudinal--
    Mr. Carter. All right. Let me ask you, you had mentioned in 
your testimony about Georgia Tunnel. Can you tell me about 
that? As I understand it, it is designed to streamline 
information submittal and access for teachers.
    Mr. Swiggum. The Tunnel is a technical concept. The 
districts wanted the teachers to stay in their local student 
information system. They did not want them to leave that 
system, but they wanted all the longitudinal data.
    The Tunnel basically is a connection from the local student 
information system into the State system. It is an electronic 
connection. That is all the Tunnel is.
    Mr. Carter. Okay. What about the parent portal that you 
introduced? What was the intent there?
    Mr. Swiggum. The intent of the parent portal is to let the 
parent see the exact same information that the teacher sees, so 
there is not the parent has to go and figure it out, they can 
actually go into the system and look at the data, the same 
thing the teacher is looking at.
    Mr. Carter. Right, great. You mentioned about higher 
graduation rates in the State of Georgia. While certainly it 
can be attributed to a number of proposals that we put forward 
in the past few years, you know, I am sure this has helped to a 
certain degree, but we have done quite a bit in the State of 
Georgia to improve our graduation rates.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rokita. I thank the gentleman. The gentleman's time has 
expired. The gentlelady from Oregon, Ms. Bonamici, is 
recognized for 5 minutes.
    Ms. Bonamici. Thank you, Mr. Chairman. Thank you to all the 
witnesses for your testimony.
    We are certainly not here debating the value of educational 
research, and that is a good thing. We are stewards of the 
taxpayer dollars, and we have an interest in having good 
research to inform our policies. That is not the question.
    At the same time, we are very concerned.
    Ms. Stickland, you raised some excellent issues. We are 
concerned about the sensitivity of the data. In your testimony, 
for example, Ms. Stickland, about how sometimes there is 
individually identifiable data. How long is it kept? Where does 
it go?
    We certainly do not want a situation where somebody when 
they are 27 or 28 is applying for a job and their prospective 
employer finds out they threw a pair of scissors in second 
grade. I mean it is not the kind of thing that we want in the 
data.
    We want it to inform our policies and we want that balance, 
and finding that is a task that we are going to have to work 
on. With the technology changing faster than policy, we really 
need to have a way to get the balance so that we safeguard 
privacy and make sure we are getting the research that we need.
    Mr. Swiggum, you testified about what Georgia is doing. In 
addition to the Statewide Longitudinal Data Systems, the 
Institute of Education Sciences also supports regional 
educational laboratories, RELs. In my State of Oregon, the 
school districts and our State partner with our local REL to 
conduct research, and it helps local communities improve 
educational outcomes.
    For example, a Northwest regional education laboratory has 
looked at postsecondary persistence among rural Oregonians, 
discipline rates among different groups of students, and it 
really has helped develop some research-backed strategies that 
have improved outcomes.
    Our middle school principals in a school district I 
represent have used practices supported by the regional 
educational laboratory. They have cut in half suspension and 
expulsion rates for black and Latino students.
    Is Georgia doing any work to bring stakeholders together 
with researchers to use school system data to evaluate current 
practices and promote more effective research-supported 
strategies and do you work with RELs?
    Mr. Swiggum. I cannot actually attest to the RELs. I can 
talk about research that we do within the community. We just 
did a research study on absenteeism in the classroom. As a 
result of the findings, we have changed our absenteeism policy 
at the State level, so it does impact State policy.
    We also have a program called PBIS, which is a school 
climate rating system, where we did research on that, and after 
the research came back from that, we went from 200 schools who 
adopted it to 900 schools. It does have an impact when we do 
the research on the data.
    Ms. Bonamici. Terrific. Dr. Hannaway, last year I worked 
with Senator Wyden from Oregon on a draft bill to close a 
loophole in FERPA that permits higher education institutions to 
give their attorneys access to sensitive student records. This 
came up in connection with treatment records of victims of 
sexual assault on campus in certain circumstances.
    My concern is that the protections that are outlined in 
FERPA give institutions discretion in determining when their 
attorneys have legitimate interest in reviewing their student 
records.
    It is a problem because when students and parents are 
uncertain whether their privacy will be protected, it can 
discourage them from reporting incidents of abuse or seeking 
treatment.
    What more can policymakers do to guarantee that personally 
identifiable information will be safeguarded, and what more can 
the education research community do to demonstrate that it is 
protecting student data?
    Ms. Hannaway. Researchers are on the receiving end of that 
data, so the data typically always are de-identified prior to 
our receiving it. There is no way for me--I have data on 
millions and millions of students in the United States. I 
cannot identify who is who. They all have a unique ID that is 
not connected to anything that I could use to identify those 
individuals.
    It would be the State Department. When the State Department 
gives us data, they approve our research questions. They want 
to make sure what we are doing will be of use to them. They 
approve us as researchers. They want to make sure that the 
people who are handling the data are credible analysts. They 
also put a time limit on it.
    Ms. Bonamici. I want to follow up in my remaining few 
seconds, thank you, with Ms. Stickland. Do you agree there is 
not personally identifiable information accessible?
    Ms. Stickland. What I will say and what I do know is that 
the State does collect personally identifiable information. How 
exactly that transfer happens with researchers, it may be 
identified and there may be a number attached to that, 
particularly a unit record, but there is always a key.
    Whatever record number is attached to that de-identified 
data, somewhere there exists a match, a key, a way to be able 
to identify those students.
    Mr. Rokita. I thank the gentlelady. The gentlelady's time 
has expired. The gentleman from Michigan, Mr. Walberg, is 
recognized for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. Thanks to the panel 
for being here, an important subject, especially when we think 
of privacy, we think of parents, families, and students, and 
the best interests of all, and making sure the educators have 
the capability of using research.
    I would like to go back to that research issue, Mr. 
Campbell. Do you think educational research improves practice, 
both in the classroom and at the school administrative level? 
As you answer the question, could you also discuss some 
specific examples of how you have seen research used to enhance 
student learning?
    Mr. Campbell. Yes, I think that research has a history of 
impacting classroom behaviors in the programs that are put in 
place and the interventions that are put in place for students, 
and the strategies that teachers are taught in their teacher 
preparation programs, and that they learn about in professional 
development, and that they then implement in their classrooms.
    I mentioned in my testimony an example of K-3 reading 
policy. In the late 1990s, the National Reading Panel studied 
the most effective ways to teach reading, the kind of landmark 
report was then something that impacted how teachers teach 
children to read. We have seen in the early years that those 
percentages of students that are reading at proficient levels 
are going up and those reading at the lowest levels are going 
down. I think that is a testament to improved practice that was 
informed by research.
    I think there are other examples in mathematics, innovative 
software that relies on how to help children develop number 
sense, and that the activities that children see will help them 
understand numbers and things like place value before they get 
into the algorithms of how to carry numbers when they are 
adding and subtracting.
    Mr. Walberg. Let me jump to the issue of privacy relative 
to research and the things that promote technology that comes. 
Mr. Campbell, can you protect student privacy without 
sacrificing use of technology in the classroom?
    Mr. Campbell. I think there are many steps that can be 
taken--everyone has a role to protect student privacy. In the 
instance of a school that is partnering with a technology 
company for mathematic software, that company does not need 
every data element about a student that exists.
    They need to know the student's name. They need to know who 
the student's teacher is, and they will generate information 
about how the student does in their math course, or in that 
content of the software.
    Why do they need those things? Well, teachers are not going 
to be able to make sense of data that comes back to them if it 
is about student 8567. They are going to want to know that it 
is Neal who is struggling with two-digit multiplication, and 
that is how it will become actionable and valuable to the 
teacher.
    That mathematical software company does not need 
information about discipline or the student's test scores in 
other subjects. The minimum that can accomplish the need is all 
that should ever be transferred to any service provider of a 
school.
    Mr. Walberg. Keep it to the basic education issues?
    Mr. Campbell. Yes.
    Mr. Walberg. Let me move on. Ms. Stickland, this is the 
worse designed committee room I have ever been in. I see the 
backs of my colleagues' heads, and I cannot see the panel, but 
thank you for moving. I will move as well. Good looking heads I 
am seeing.
    Your testimony largely focuses on the importance of 
protecting student privacy and transparency around student 
data. In your opinion, what is the most critical piece of 
protecting student privacy, and how would you prioritize the 
suggestions you made?
    Ms. Stickland. Thank you for the question. What I would say 
is there is a difference between privacy and security, right. 
Privacy is keeping your information confidential and security 
is keeping it safeguarded.
    What I would say in order to generate a lot of trust in the 
parent community is understanding exactly what is going on, 
what is being collected, with whom it is being disclosed, what 
are the uses of the data.
    Parents really honestly do not understand that more data is 
being collected on their children than what is on face value, 
right. It is not just the names. It is just not the two-digit 
multiplication problems that a child is not interacting with, 
especially in an online environment. There is a lot of metadata 
shed while a child is interacting online.
    I think understanding the breadth of the problem or the 
situation or the ecosystem of online learning and communicating 
exactly what parents need to know, which is what data is being 
used, how is it being used, with whom is it being shared, and--
    Mr. Walberg. In other words, giving greatest attention to 
the parent and the student, the child, two key components that 
make that education opportune.
    Thank you. I yield back.
    Mr. Rokita. I thank the gentleman. The gentleman's time has 
expired. The gentlelady from North Carolina, Ms. Adams, is 
recognized for 5 minutes.
    Ms. Adams. Thank you, Mr. Chairman, Ranking Member Scott, 
thank you as well, and thank you to our witnesses this morning.
    As many of you know, I have been an educator for over 40 
years, and the first time I was elected as a member of my 
school board in my city of Greensboro, but needless to say, I 
have dedicated most of my career to education, and I have 
observed that a lot of education policy is developed by people 
with little experience in education. I do not mean this in a 
derogatory way, but I think it is important to point out as we 
discuss the importance of education research.
    In order to ensure the efficacy of policy making, it should 
be centered on data and scientific research, and while that is 
something some of my colleagues have often shied away from, it 
is crucial for sound education policy.
    One of the main roles of the Federal Government in primary 
and secondary education is to ensure that all students have 
equal access to a quality education, specifically our most 
vulnerable student populations, which are often low income and 
students of color.
    As we have seen with previous policies, like No Child Left 
Behind, no matter how well-intended the policies, there are 
often unintended consequences.
    Dr. Hannaway, can you speak to the impact educational 
research can have on the work that we do as education 
policymakers, and specifically how it can remove some of the 
ideological bias that often dictates policy decisions?
    Ms. Hannaway. Yes. Let me give you some examples. I 
mentioned earlier that a big bulk of our work is focused on 
teachers. What is very clear is the most important factor that 
affects student achievement is the teacher, number one.
    Number two, the question becomes, well, how are the 
teachers, top teachers, top 15 percentile, getting about a year 
and a half gain for their kids? The bottom 15 percentile is 
getting about half a year gain. So if your child is in a 
classroom with one of these low-performing teachers for a 
number of years, that child gets so far back that it is hard to 
catch up.
    One of the questions we have addressed is how are these 
teachers distributed across schools serving different student 
populations, with the idea being that if they are all with the 
high-achieving kids to begin with, disadvantaged kids are 
really being hurt.
    What we found is the variation within schools is as great 
as the variation between schools, so in every school, there are 
these very high-performing and low-performing teachers. We then 
ask the question, well, what if school districts want to 
develop incentive programs where they identify and they can 
identify those teachers that are extraordinary teachers? Would 
it make sense to give them bonuses of some sort in order to 
provide incentives for them to move to schools where they are 
most needed?
    We first had to find out is a teacher's productivity, is a 
teacher's effectiveness affected by the type of students they 
teach? Are teachers who are highly effective in schools serving 
more advantaged kids, if we can provide them incentives to work 
with more disadvantaged kids, will they be just as effective?
    This was a very big study. The answer was yes, which then 
provides support for incentive programs for moving the most 
effective teachers to those schools where they are most needed. 
That would be an example of the sort of research that informs 
policy.
    Ms. Adams. Thank you. Mr. Swiggum, let me follow up. Can 
you speak to the benefit of education research for our 
practitioners in the classroom and how it can contribute to 
better outcomes for our students?
    Mr. Swiggum. Could you repeat? I did not quite hear that.
    Ms. Adams. Can you speak to the benefit of education 
research for our practitioners in the classroom and how it can 
contribute to better outcomes for students?
    Mr. Swiggum. I will go back to the two that I cited. Our 
teachers basically found that in Georgia, if you are absent six 
days or more, it basically affects your whole literacy reading 
score, and it was a surprise to us, so we actually implemented 
a different policy that teachers now follow around absenteeism 
and remediation work. Research does help teachers practice in 
the classroom much better.
    Ms. Adams. Thank you. Dr. Hannaway, what would your 
response be to some of my colleagues who have concerns about 
the use of student data as it relates to student privacy?
    Ms. Hannaway. The data that we as researchers receive are 
completely de-identified, and we work with such a large number 
of cases. Number one, there are so many disincentives for us to 
try to probe in that way, I would lose my job, I would lose my 
access to data. The consequences for researchers in any way 
trying to identify individuals are severe.
    Ms. Adams. Thank you. Mr. Chairman, I am out of time. Thank 
you, I yield back.
    Mr. Rokita. I thank the gentlelady. The gentlelady's time 
has expired. I now recognize the gentlemen from Virginia, Mr. 
Brat, for 5 minutes.
    Mr. Brat. Thank you, Mr. C hairman. I would like to start 
off with Ms. Stickland and then just move down the panel. I was 
an economist before I got into this business about a year ago. 
I am very interested and know the absolute necessity of having 
good data to do research on kids and education policy. I was in 
the middle of that business.
    On the other hand, you are bringing us very real concerns 
here today on privacy issues, et cetera. One of the things I 
learned in economics is to always follow the money, right. If 
something is going wrong, think through some of the most 
egregious cases that come to mind in terms of violations of 
privacy, and when you think about that, are there economic 
incentives, is somebody making a buck off this, or is it just 
that we have not kept up with the technology over time?
    As we are thinking through this, most of the folks on this 
side of the aisle share kind of a decentralization view of 
government, right, so when you get up into the billions and 
trillions up here, there are huge economic forces that can be 
at work driving some of the revenues for this, that, and the 
other thing.
    Some of us want to keep things more State level, local 
level, et cetera. Just help me, in your experience, any 
egregious cases that are tied to the wrong incentives being in 
place or is it just a matter we are not keeping up with the 
emerging technologies?
    Ms. Stickland. Thank you for the question. What I would say 
is there is actually not a lot of publicly released data 
breaches, especially of SLDS. I am aware of a few at a very 
small scale in our own State. I think what affects parents most 
is there is no informed consent. There is no knowledge that 
information that they are sharing with their school district is 
headed up to the State.
    I think approaching it from that perspective, that will 
gain the trust. Then there is the whole online education 
spectrum or the vendor community. I think what we are seeing is 
some good actors and some bad actors, and that is fair, and I 
think certainly addressing and modernizing FERPA, if we can 
place some safeguards around the use, not just commercial use 
in marketing and selling of data, but also monetizing in other 
ways, there are ways to monetize data that is outside the 
direct sale.
    Those are things that I think we should be very concerned 
about. And getting the vendor community on board and helping us 
lead the charge, I think it will help a lot.
    Mr. Brat. Very helpful, thank you. Mr. Campbell?
    Mr. Campbell. To my knowledge, the issues that have 
happened around improper disclosure, breaches, are most often 
people-related issues, inadvertent disclosures or maybe not, 
having settings done properly, which speaks to the importance 
of having more policies in place around audits of systems, 
something that our model policy requires of a State, that they 
have a security audit of their system to prevent situations 
like that from occurring.
    We think it is important that the ESSA bill that just 
passed allows school districts to use some of their Title II 
funding for training around privacy, which we think is a great 
step to have that knowledge base built, that everyone has a 
role to protect it.
    I think it is also a great step from industry that there 
have been almost 250 companies in the education technology 
space that have signed on to the pledge that they will protect 
student data, that it will not be used or sold for advertising 
purposes, that we think that shows they take this seriously, 
and just as Dr. Hannaway mentioned, the brand risk for her as a 
researcher encourages her to protect data.
    I think that pledge creates that same brand risk and they 
recognize bad practices around data are not good for districts 
wanting to work with them.
    Mr. Brat. Thank you very much. We have 58 seconds left, so 
divided by 2, 30 and 30. Dr. Hannaway?
    Ms. Hannaway. You are an economist, let me give you a 
question that we would be very happy to do some good research, 
and that is the extent to which all of us talk about 
technology. One thing we really do not know is the extent to 
which technology is a substitute for the human capital that is 
in the classroom for teachers, and the extent to which it is a 
facilitator, to the extent to which it is another add-on, these 
are important questions. They are important substantive 
questions.
    My experience is individuals can be protected, if you have 
legitimate people doing good analysis, individual privacy will 
be protected. We want it protected. We want the data providers 
to trust us.
    There are some very important questions out there, and I 
think technology is one of them. We really do not know yet the 
extent to which and the ways in which and the conditions under 
which technology can really improve--
    Mr. Rokita. The gentleman's time has expired.
    Mr. Brat. Thank you.
    Mr. Rokita. I thank the gentleman. The gentleman from New 
York, Mr. Jeffries, is recognized for 5 minutes.
    Mr. Jeffries. Thank you, Mr. Chairman, and let me thank the 
witnesses for your presence here today. Let me start with Ms. 
Stickland. You mentioned in your testimony that there is an 
absence of informed consent as it relates to the transmission 
of student data and academic information.
    In your view, what would sort of an informed consent 
requirement look like, assuming that you believe it is an 
appropriate step to take as we consider changes to data privacy 
laws?
    Ms. Stickland. What I would say is that parents would 
appreciate the opportunity for informed consent at any 
practical sort of situation. In the absence of those practical 
situations, we certainly would appreciate transparency. Again, 
the transparency is what data is being collected and for what 
purpose, who it will be shared with, what are the security 
protections, and when will that information be destroyed?
    I think when parents enter the education system, enroll 
their children, just like FERPA right now requires a directory 
information notice, an exception, the ability to opt out, I 
think FERPA should require schools to tell parents how 
information is being used, and certainly at any point possible, 
the ability to have consent and to be able to opt out.
    Mr. Jeffries. Is it your view that many parents or a 
majority of parents have no understanding as to how their 
individual child's data is being transmitted and for what 
purposes it is being used?
    Ms. Stickland. I would agree with that. I would say not 
only when school information is being pushed up to the State 
but also in the online environment. You know, parents are very 
trusting of their schools, and they believe that information 
they are sharing with their teachers and their schools will 
remain within their school walls.
    I would agree with that statement, but I would say we are 
becoming educated on the issue as well.
    Mr. Jeffries. Thank you. Dr. Hannaway, would an informed 
consent requirement present an impediment to academic research 
in your view, or is it a reasonable thing to consider?
    Ms. Hannaway. I do not think informed consent of individual 
parents should be required at all for academic research because 
the data we get are de-identified to begin with.
    Mr. Jeffries. Who is de-identifying the data? Is that 
happening at the school level?
    Ms. Hannaway. State level.
    Mr. Jeffries. Or at the superintendent level?
    Ms. Hannaway. State level. We get our data from the State, 
and Mr. Swiggum is representing Georgia, and any data we get 
are de-identified, the research questions are approved. We sign 
our lives away as individuals, even our research assistants, 
where our institution that we are working at also has to sign 
on and build in security procedures.
    There has just never been an issue when it comes to solid 
research using these State administrative databases of 
violation of security.
    Mr. Jeffries. Mr. Swiggum, could you comment on the notion 
of an informed consent requirement or ways in which parents 
could possibly be brought into a more transparent space with 
respect to how their students' information is being used?
    Mr. Swiggum. Informed consent is probably one of the more 
labor-intensive things, depending on how it is implemented. 
Parents enroll their child in school, and they are consenting 
to put the records into that school system. Parents may not 
know what the State does with that data. That is basically up 
to the district to let the parents know.
    We rely on districts to notify parents of what is going to 
happen to that data because they are the ones collecting it. 
When you do get very prescriptive about this is what a district 
has to do to notify a parent, it can put a burden on the 
district.
    Mr. Jeffries. Do you think when a parent enrolls their 
student in a school, you indicated that they are consenting to 
that information being part of the school system, but do you 
think they are consenting to that information being distributed 
in a variety of different ways to researchers that they may be 
unfamiliar with, separate and apart from the question as to 
whether that research is producing information that is valuable 
ultimately to school instruction?
    In your view, what do you think parents are actually 
impliedly consenting to?
    Mr. Swiggum. I think parents are consenting to enrolling 
that child in that school system and having the records in that 
school system. I think that is what parents basically feel. I 
do not think parents really know about the research part. I do 
not think they know about that unless someone talks to them 
about it. That is just not something that parents are thinking 
about when they are enrolling their child in that school 
system. That is just my personal opinion.
    Mr. Jeffries. Thank you. My time has almost expired. I 
yield back.
    Mr. Rokita. I thank the gentleman. The gentleman's time has 
expired. The gentleman from Alabama, Mr. Byrne, is recognized 
for 5 minutes.
    Mr. Byrne. Thank you, Mr. Chairman. Ms. Stickland, thank 
you for your time on this. I started out in education policy as 
a parent, and there is no greater advocate for our children 
than parents, and I appreciate what you do.
    Mr. Campbell, Dr. Hannaway, I spent eight years in a State 
school board in Alabama, several years in our legislature in 
the policy committees. The data you collect is absolutely 
essential to policymakers, including those of us on this 
committee, so thank you for what you do.
    Mr. Swiggum, I was chancellor of postsecondary education 
for the State of Alabama, so I have been in your position, so I 
have sort of covered all of these.
    I think Ms. Stickland raised a couple of questions in my 
mind. Mr. Swiggum, they kind of come to you, unfortunately, 
because of your position. She raised the issue about not 
necessarily informed consent, but just informing parents we are 
collecting this information on your child, it is going to be 
shared in this way with these people. Is there a problem doing 
that?
    The second question she raised is what can we do to protect 
against hacking, and hacking is a problem throughout society. 
We know that. The third thing I would like you to address, and 
this is three things for you to remember, is how much does this 
cost for you to comply with it?
    It is pretty easy for us policymakers here at the Federal 
level to put all of these requirements on you, but at the end 
of the day, you have to allocate resources or your State 
Department of Education has to allocate resources to comply 
with it.
    If you could sort of take those one, two, three, if you can 
remember them that way, and just respond to them.
    Mr. Swiggum. Number one, parental consent, I believe that 
what happens--
    Mr. Byrne. Not consent, just notification.
    Mr. Swiggum. Notification.
    Mr. Byrne. Right, not necessarily expecting them to say 
yes, just we are telling you now we are going to share this 
information in this way with these people.
    Mr. Swiggum. It is to the degree and to what topics they 
need to be notified of. If the State of Georgia has gotten a 
request from a research firm to pull data, de-identify, and 
give it to them for research, to try to notify all the parents 
in Georgia that we are going to do a research project would be 
next to impossible.
    Mr. Byrne. Is there a way to say, not that you know these 
particular people are going to get it, but tell parents in 
advance we are collecting this information on your child, it is 
going to be shared in this manner with these types of potential 
users? Any problem with that?
    Mr. Swiggum. No, I do not see a problem with that, as long 
as it is not something which is very prescriptive that says if 
this happens, you have to do this. If it is a general 
understanding. I think educating parents how the data is used 
in any system is a very good idea. That is number one.
    Mr. Byrne. Yeah, Hacking.
    Mr. Swiggum. Hacking. Hacking--are you talking about a 
breach or are you talking just people trying to get into the 
network or getting to the data?
    Mr. Byrne. Well, I think the concern we have been having in 
Washington is outright hacking that has gotten into some data 
systems we did not think people should be able to hack into, 
but with very sensitive personal student data, how can we 
assure parents that a hacker cannot get in and get some very 
personal information about their children?
    Mr. Swiggum. That is one of my primary roles, I am 
responsible for the infrastructure, also. That is where the 
hackers go after, they do not actually come in through the 
software, they come in through the hardware and the networks.
    We have a series of seven or eight steps to make sure our 
infrastructure is solid, the data is all encrypted in it, so if 
anybody actually got to it, they could not unencrypt the data.
    We do several things to make sure that a hacking attempt, 
if it even got through our firewalls, which it does not, we 
would have had about a half a billion attacks a year, that is 
what happens in a statewide network, because you get attacked 
constantly, but they do not get through because they are not 
able to penetrate our security.
    Hacking is something that we deal with every single day, 
and to this point in time, we have been very successful keeping 
those things at bay.
    Mr. Byrne. I would think your colleagues around the country 
are doing the same things. If we had some very general 
statement that required school systems to do it around the 
country, this is requiring you to do what you are already 
doing.
    Let's get to the costs. It is real easy for us to put 
together these Federal statutes up here. You have to live with 
them. Is there something you want to tell us as we go through 
this, hey, be careful of this because it adds an unnecessary 
cost?
    Mr. Swiggum. The more prescriptive you get with technology, 
the most costly it is going to be because the chances of what 
you decide today that I should do tomorrow will be outmoded and 
I will have to redo it again. I would caution people just not 
to get prescriptive saying when you install security, do it 
this way, or when you are doing something, do it this way, 
because technology evolves so quickly, I will have to replace 
it in another year.
    Mr. Byrne. You would not have a problem with the general 
requirement to do it, because that is going to change over time 
with technology?
    Mr. Swiggum. Yes.
    Mr. Byrne. Thank you very much. I appreciate everybody's 
testimony. I yield back.
    Mr. Rokita. I thank the gentleman. The gentleman yields 
back. The gentlelady from Ohio, Ms. Fudge, is recognized for 5 
minutes.
    Ms. Fudge. Thank you so much, Mr. Chairman, and thank you 
all for being here today. Mr. Swiggum, the Student Data Privacy 
Accessibility and Transportation Act passed the Georgia State 
legislature in 2015. That same year, Mr. Rokita and I 
introduced H.R. 3157, the Student Privacy Protection Act, which 
will modernize privacy protections, improve communications 
between parents and school officials, and hold parties 
accountable for their use of student information.
    While it is commendable that the State legislature in 
Georgia has taken steps to safeguard student data, what do you 
believe the Federal role is in ensuring that students in all 
states are protected?
    Mr. Swiggum. I am a big fan of the bill that just passed in 
Georgia, because it really elevates the need for security and 
privacy. If the Federal Government looks at that bill and 
adopts a lot of those principles, I think we would be a step 
ahead as a Nation.
    It really does a lot of things that people are concerned 
about. It talks about what data we can collect, what we cannot 
collect. It is a very good way of addressing the issues of--
    Ms. Fudge. You do believe the Federal Government has a role 
in protecting student data?
    Mr. Swiggum. I think the Federal Government maintains the 
floor of what is required. I think every State should add on to 
that--
    Ms. Fudge. So, your answer is yes?
    Mr. Swiggum. Yes.
    Ms. Fudge. Thank you. Dr. Hannaway, I am concerned about 
the opt-out that you talked about in your testimony. Could you 
just go a little further and tell me what the effects are of 
opt out, and how we could really bias and/or affect data 
collection?
    Ms. Hannaway. I think I, and I think most researchers, 
would be very opposed to opt-out positions, because it means 
when we get the data, we do not know whether the data we are 
receiving are actually representative of the population we are 
trying to see is benefitting or not benefitting from certain 
programs and policies.
    As I mentioned before, it would be as if getting a Swiss 
cheese pack of data. There could be biases built into that. I 
said in my testimony it could be that middle-class parents of 
adolescent boys do not want their student data to be in the 
file. That means any conclusions we come to could not be 
applied to that particular subpopulation. There could be 
significant fractions and bias in the data, and we would be 
coming to conclusions on faulty data.
    Ms. Fudge. Thank you. Still to you, Dr. Hannaway, is it 
true that easily accessible education data has become like a 
hot topic, right, that has attracted some of the Nation's best 
researchers?
    It sounds like a real-life example of if you build it, they 
will come. What does that mean for the future of education 
research?
    Ms. Hannaway. I think it is a tremendously exciting time 
for education research. We can produce findings quickly. We can 
produce them reliably. We can use very sophisticated technical 
strategies in analyzing the data. We can look at 
subpopulations. All of this can happen in almost real time.
    I think education research has moved into a different 
stratosphere of effect. As I mentioned earlier, if you go to 
any of the most prestigious journals, you will see education 
research being done. If you look even 10 years ago, you would 
not see that happen.
    Ms. Fudge. Thank you. My last question to you as well, Dr. 
Hannaway. How can the Department of Education make education 
data and collection more accessible to researchers so 
researchers can perform a more effective analysis on that 
information without having to spend too much time cleaning the 
information or having to use incomplete or inconsistent 
datasets?
    Ms. Hannaway. Well, I am a big fan of the State 
administrative data system. These are generally clean data. We 
do not have to spend time cleaning them because they are used 
for administrative purposes, so they are constantly being 
updated. They are constantly being cleaned. Errors come to the 
floor very quickly.
    It is these State administrative data systems that the 
Federal Government has invested heavily in that are a gold mine 
for researchers.
    One thing that is happening, however, is that because of 
privacy concerns, and I think when you are talking about those 
data, those privacy concerns are overstated, but because of 
privacy concerns, States are becoming more and more cautious 
about giving data to researchers, and that is significantly 
retarding the progress we could be making in identifying the 
factors in programs that are promoting student learning.
    I might add--
    Mr. Rokita. The gentlelady's time has expired. We will now 
hear from the gentleman from Georgia for 5 minutes, Mr. Allen.
    Mr. Allen. Thank you, Mr. Chairman. Mr. Swiggum, you have 
done a great service to the State of Georgia, and I appreciate 
your testimony today, and, of course, what you have 
accomplished in the last few years is pretty remarkable.
    Obviously, you have impacted our education system, but then 
again we have heard a lot of testimony here today about 
concerns as far as our impact on the education system, the 
knowledge of what these students are achieving, versus what 
information out there does not need to be exposed.
    What would be a solution, do you have a recommendation as 
to what we need to do to make sure that everyone's interest 
here is preserved?
    Mr. Swiggum. Well, in Georgia, to make sure the data we 
collect is data that is going to be used, we actually do not 
collect any data unless it is a State board rule, State law, or 
Federal law. If it is not one of those three things, we do not 
collect data. I am responsible for data collection, so if 
someone comes to me and says I want to collect some data, they 
have to show me one of those three policies before we even talk 
about collecting it.
    We have procedures in place to make sure that we just do 
not collect data just because somebody wants to look at it. 
There has to be a real reason behind it.
    Mr. Allen. Are there specific ways that this data is 
helping our teachers do their jobs?
    Mr. Swiggum. The longitudinal data system? There are 
countless ways that teachers are helped to do their jobs. It is 
just a matter of--when I gave my first testimony, a teacher who 
wants to look at the Lexile levels for 100 kids can now do it 
with touching one button. They can see all 100 kids' Lexile 
levels, and then if they see some problems with a couple of the 
children, they can drill deeper into that child and see all the 
history of that child up to 9 years' worth to understand where 
have the Lexile levels been, what has been your enrollment, 
have you moved from different school systems?
    These are all things a teacher needs to understand, and why 
do we have it in there? Because teachers ask us to put it in 
there. Same thing that parents ask us to do. We are doing what 
our constituents are asking us to do with our system.
    Mr. Allen. This has actually helped parental engagement in 
the lives of their kids?
    Mr. Swiggum. Absolutely.
    Mr. Allen. Ms. Stickland, you obviously are concerned about 
this information, the way it is used. What is your 
recommendation for a solution to achieve the results that your 
organization wants to achieve?
    Ms. Stickland. Well, if I could just comment briefly on 
parental engagement with these dashboards and these types of 
tools. A lot of parents end up using these almost as monitoring 
their kids. In a lot of ways, that can backfire. Teachers as 
well. They can use the information to stereotype a child or 
have a discriminatory perspective on a child before they even 
enter the classroom. Just as we might see benefit in data being 
used this way, there is also ways that it can be used for harm 
or for risks.
    In terms of your question, what can parents do?
    Mr. Allen. How can we reach a compromise, I guess is my 
question?
    Ms. Stickland. Reach a compromise?
    Mr. Allen. Yes.
    Ms. Stickland. Well, again, I would go back to the 
transparency piece. Parents--I think a lot of times what 
happens is this data is being collected for research or policy 
decision-making purposes, parents do not understand that, and 
when they find out, then they are rightfully concerned that 
they were not informed ahead of time.
    I think the transparency issue, telling parents what is 
going on, what is happening with their students' data, how it 
is being purposed at the school level, at the State level, 
beyond the school and State walls, I think that would be very 
helpful moving forward.
    Mr. Allen. Mr. Swiggum, we do that in Georgia, correct?
    Mr. Swiggum. We do that.
    Mr. Allen. Mr. Campbell, your thoughts on the compromise 
here?
    Mr. Campbell. I agree, I think transparency is incredibly 
important so that parents understand what information and what 
tools are used by schools and information that is collected. At 
the State level, to have an inventory of what elements are in 
the State data system and what purpose they are serving, and 
there is an opportunity to weigh in if anything new is proposed 
to be added.
    I think at a district or school level, it would be smart 
practice for districts to talk about what tools and services 
they use, and why, and to make that available for parents, and 
to be part of a conversation about what tools are used and why, 
and what purposes they serve.
    I think that step can alleviate a lot of the concerns and 
fears that may exist. Those fears are not unfounded, but I 
think good practice from districts can help allay many of those 
concerns.
    Mr. Allen. Mr. Swiggum, any idea how many hits we get in 
Georgia on our site?
    Mr. Swiggum. Every single one of them.
    Mr. Allen. No, I am talking about--
    Mr. Rokita. Thank you. The gentleman's time has expired. We 
will now hear from the gentleman from California for 5 minutes, 
Mr. DeSaulnier.
    Mr. Desaulnier. Thank you, Mr. Chairman. Thank you to the 
panel. My questions pertain more to sort of the retail aspect 
of getting the data and disseminating it, both to the teachers 
in the classroom and to the parents.
    Mr. Campbell, how does data collection and privacy rights 
impact innovative classrooms? In California, we certainly heard 
a lot about this in No Child Left Behind, that they were 
overwhelmed with interpretations of the data, particularly 
large school districts like L.A., were accumulating.
    What are some of the things we have learned about 
distributing data and making it impactful at the classroom 
level?
    Mr. Campbell. I think the first thing is data on its own is 
not going to be an answer or address a challenge that a teacher 
or principal may face. There needs to be smart conversations 
about why information would be collected at a classroom, 
school, or district level, and to what use.
    I think if there is a disconnect there, it can lead to the 
sort of fatigue that you are describing, and would lead to 
information that is not usable. I think the dashboards that Mr. 
Swiggum has been describing that the Georgia SLDS includes are 
ways to make data actionable and meaningful for teachers, 
principals, superintendents, and parents as well.
    I think that is a key driver of the goals. Data for data's 
sake is not valuable data to provide insights to help kids, and 
open up opportunities is what is important. It is how that data 
gets turned into insights and activities that really brings 
value.
    Mr. Desaulnier. Is the research somewhat generational? I 
know being older, some of this information, explaining to 
people who have been in the profession a long time what this 
means and how to translate it in the classroom is a struggle, 
learning more about how to make sure everyone uses this 
information in an impactful or positive way.
    Mr. Campbell. I think that is definitely a challenge, 
innovation, in what school experiences look like for kids and 
teachers takes time, and it should not be viewed as radical 
massive shifts.
    A school needs to be thoughtful in planning what 
instruction looks like, what the experience for kids looks 
like, and bring their staff along on that journey, and have the 
staff actually help lead that journey. That will make buy-in 
much more long-lasting through the innovations that are being 
introduced.
    Mr. Desaulnier. Are we putting more resources into that as 
we learn more about data collection and its usefulness? Any of 
you? Is that primarily a State role, do you believe?
    Mr. Campbell. I think it is, a State and local role. That 
is the vast majority of funding, there are valuable clauses in 
ESSA, the Student Opportunity Block Grant allows districts to 
invest in innovative personalized and blending learning models, 
and really puts an emphasis on the professional development of 
staff to do that well. We think that would be something that 
would be a very smart use of funds for many districts and 
States.
    Mr. Desaulnier. Dr. Hannaway, in regard to the parents, a 
study by the Future of Privacy Forum in 2015 found a majority 
of parents were unaware of existing privacy protections, but a 
similar majority proportionately believe there should be more.
    This goes to similar--what I am trying to get to is getting 
both as we learn more about data, getting both the teachers in 
the classroom and the parents to understand the balances we are 
trying to do.
    Do you have any comments about the irony that they want 
more protection but they are unaware of what is available now?
    Ms. Hannaway. I think that is probably an accurate 
statement. I am sure it is an accurate statement. At least from 
the researcher side, these data are, as far as I have been able 
to make out over 10 years working with them constantly, 
completely protect privacy.
    That said, as a researcher, these data, we think, are so 
important, not only for our own careers, but also important in 
order to understand how to make education better in the U.S. 
and maybe get back to the level that our economic competitors 
are. Using these data are critical to that end.
    Mr. Desaulnier. Since you mentioned our international 
competitors, do you know if that scenario is similar in other 
countries where parents are unaware of the privacy protections 
but want more? Are any of you aware?
    Ms. Hannaway. I really cannot talk about that from other 
countries, not knowledgeably. I do think the case here, there 
are many administrators, there are many teachers, there are 
many researchers who really do not understand the nature of the 
data. Many people think that we have identifiable data, and we 
just do not.
    Mr. Rokita. The gentleman's time has expired.
    Mr. Desaulnier. Thank you.
    Mr. Rokita. We will now hear from the gentleman from 
Kentucky, Mr. Guthrie, for 5 minutes.
    Mr. Guthrie. Thank you, Mr. Chairman. Thank you for that, I 
appreciate it. It is hard to believe that it has been over 40 
years since we have updated our privacy laws. In fact, 40 years 
ago, I think I was in sixth grade. We certainly did not have 
any of the technology we have now.
    As a matter of fact, when I stepped out I was meeting with 
a friend I knew in graduate school, that was the 1990s. We were 
switching cell numbers. We did not have cell phones really even 
then when we were in grad school. She is here for another 
meeting. A lot has changed.
    Ms. Stickland, I want to ask you first, in your experience 
with the coalition, can you describe how you have seen parents 
participate in the student privacy discussion at the local 
school and school district level, and how parents can become a 
bigger part of the student privacy discussion?
    Ms. Stickland. Yes, thank you for the question. I would say 
as soon as one parent sort of understands the current landscape 
about student privacy, understands that FERPA is 40 years old, 
and when they ask questions about FERPA and they are told that 
everything within their school district complies with FERPA, 
but then later understand FERPA has been eroded over the years, 
and it certainly has not been modernized to keep up with 
current conditions. I think as soon as one parent, really just 
one parent, begins to understand that and begins talking to 
other parents, it is the kind of conversation that ignites, 
because it is very dear to all parents.
    I mean, we are the ultimate stakeholders. We trust our 
schools with our children and with their information. 
Certainly, as soon as someone has a concern and shares it with 
others, it ignites, just like I said.
    We have had a very good opportunity to get a lot of 
information to parents, give them some practical tips. In fact, 
we are coming out with a student privacy toolkit this fall, 
with the intention of having practical tips and best practices 
for parents and teachers to really advocate for good policy at 
the local district level, certainly. And certainly when parents 
get more confident about their concerns and their issues, then 
we have seen them take the issue up with their State 
legislatures, and we are seeing some good progress in some 
States across the country.
    Mr. Guthrie. Thank you. I have three kids, and my third one 
is in her senior year of high school. I will tell you, no 
matter what level or what school, whatever, it is always that 
one parent. It is always somebody that takes that and moves 
forward, and thank goodness for that one parent who led on the 
issue and brought us all moving forward on whatever the issue 
is moving forward.
    Mr. Swiggum and Mr. Campbell, I have a question. I actually 
want to follow up on an earlier discussion that you guys were 
having, and looking at technology in the classroom. The 
question is how can we help ensure teachers can use helpful 
technology but are aware of what data is being used, created by 
using that technology, and how can we limit the burden on 
teachers in determining that for the app, using technology for 
the app and the data within each app?
    Mr. Swiggum?
    Mr. Swiggum. To me, the best way to help teachers use the 
technology is training, training and education. There is so 
much technology out there now that is being aimed at the 
teachers to try to help them, but the training is not always 
there for them to understand it, so a lot of them go out on 
their own, find these things themselves, but they are not 
always well-versed in privacy and security because the 
technology looks harmless, and they do not see it as a problem, 
so they start using it, but there may be a problem.
    It is really about education and helping people understand 
what are you responsible for and how technology should be used 
appropriately. So, training.
    Mr. Campbell. I will second that. I think also districts 
have an important role in vetting tools that are used and 
reaching agreements where appropriate with their partners that 
clarify information about students remains the property of the 
district, and at the end of terms and services, needs to be 
returned or deleted.
    I think that is something that you are not realistically 
going to get 3 million teachers across the country up to high 
levels of expertise. I think there are important roles for 
districts to play in that.
    On top of that, I think the sort of direct regulation that 
was something in the model policy that we developed at the 
State level and has been included in proposals at the Federal 
level is something that clarifies that it is not just the 
information and transcript level data about students that is 
protected, it is the data generated as students use tools and 
technology in the classroom that deserves protection and 
protection is required of that information as well.
    Mr. Guthrie. Thank you very much. My time is expiring, so I 
yield back.
    Mr. Rokita. I thank the gentleman for yielding back. The 
gentlelady from Massachusetts, Ms. Clark, is recognized for 5 
minutes.
    Ms. Clark. Thank you, Mr. Chairman, and thank you to all 
the panelists for being here today on this important topic.
    My first question is for you, Ms. Stickland. Several of the 
suggestions that you have made have broad support, restricting 
student data from being used for marketing purposes, and 
ensuring that we have robust security protections.
    I wanted to ask you about one of your recommendations for 
citizen oversight for the institutional review boards. My 
concern would be that if we have citizen oversight, how do you 
balance that with maintaining the independence that board 
needs, and how do we make sure that oversight would be 
representative of a broad cross section of American parents?
    Ms. Stickland. Thank you for the question. I am not sure I 
understand your question specifically, but what I will say is 
that we recommend citizen oversight of the SLDS, development of 
the SLDS. We really believe there should be a parental voice as 
these are developed and maintained and expanded.
    In terms of IRBs, we think these should also be 
implemented. In the State of Colorado, our State Board of 
Education is going to dissolve our IRB and rely on all outside 
institutions' or organizations' IRB process.
    When we see efforts like this happening, we think IRBs are 
very important. They should be implemented at all State levels, 
and we believe also a citizen oversight of the SLDS, some sort 
of parental involvement.
    Ms. Clark. I have sort of a tangential question for you, 
too, but one that has been of concern for me. Some of the 
activity we are seeing around asking our students who are 
research assistants at the university level, having their 
specific names and student information revealed based on the 
research they are conducting, have you thought about that at 
all in the protection for privacy for students who are 
conducting research?
    Ms. Stickland. To be honest, this is the first time I have 
heard about it. I think any student in any institution, whether 
it is in K-12 or higher ed, should have their personal 
information protected under a Federal law like FERPA. I believe 
that should not be released to the public unless there is 
student or parental consent when it is applicable.
    Ms. Clark. Thank you. Dr. Hannaway, sort of along the same 
vein, I wondered if you had thought about that at all as a 
researcher yourself, sort of the role of student researchers 
and their privacy concerns? I realize this is a little off 
topic.
    Ms. Hannaway. Yes, and I am not--with the research that 
they conduct independently or with them as research 
assistants--
    Ms. Clark. Research assistants tied to professors and their 
research.
    Ms. Hannaway. Working with data?
    Ms. Clark. Working with data, and really my question is we 
have seen some interest in having students who are conducting 
research that may be controversial to some, you know, having 
their personal data exposed and put into the public because of 
the research they are conducting, which seems to me a real 
privacy issue for some of our students. I just wondered if you 
had any thoughts on that, and feel free to say you had not 
thought about that.
    Ms. Hannaway. I had not really thought about that, but I do 
know when I am working, say, with State data, I am responsible 
for my students, and my students have also signed the same 
nondisclosure and confidentiality statements that I have 
signed.
    I would hold the student responsible. The university would 
hold the student responsible and hold me responsible. If you 
are working with these State data, you do it under very strict 
controls by the State. We abide by them to a fault. The 
students would be held to the same standard.
    Ms. Clark. My concern is not with the students. I do not 
know of any examples. What we are seeing now are requests for 
student names based on the research they are doing, so sort of 
the privacy of that student researcher, which I understand it 
is not exactly the issue you are looking at.
    But I did want to ask you briefly in my time remaining, 
easily accessible education data has made educational research 
really a hot topic. How do you see--what does that mean for the 
future? I am hoping you can comment specifically on how we 
could reduce or best use our tight resources for education.
    Mr. Rokita. I am sorry, I will give you 5 seconds to 
respond. She can have some of my time. The gentlelady's time 
has expired.
    Ms. Clark. Thank you.
    Mr. Rokita. We will now hear from the gentleman from 
Nevada, Mr. Heck, for 5 minutes.
    Mr. Heck. Thank you, Mr. Chairman. Thank you all for being 
here today. I apologize for missing your oral testimony. As 
often happens, we have simultaneous hearings going on. I did 
have the opportunity to read through your written testimony.
    Ms. Stickland, certainly you have delved into this issue 
quite deeply as a parent. In your written testimony, you talk 
about information that is being collected might have been 
required previously by No Child Left Behind or individual State 
mandates, but now much of the data collected appears to 
transcend legal requirements.
    With the design, adoption, and implementation of Common 
Core, one of the things I have heard from a lot of parents is 
their concerns that Common Core has required new depths of data 
mining for their students.
    As a parent who has been involved in this issue, have you 
come across that same issue, and do you have any views on 
whether or not Common Core itself has actually increased the 
amount of data mining of student information?
    Ms. Stickland. I thank you for the question. I would say I 
have heard the same concerns from parents from across the 
country. There is a lot of new measurements of student 
achievement that does not necessarily have academic purposes, 
grit, and tenacity, and those sorts of things, sort of 
emotional factors, and there are a lot of parents who are very, 
very concerned about this.
    I have not experienced it in my own children's education, 
but I do know that is a growing concern among the parent 
community.
    Mr. Heck. Thank you. Mr. Campbell, in your testimony you 
talked about the model privacy policy that you developed, 
saying it avoids unnecessary data collection. How is 
``unnecessary'' defined and who defines it?
    Mr. Campbell. Well, that was a summary, there are 
prohibitions in that law around certain data elements that 
prohibit a State from collecting things like political 
affiliation of parents and families or religious beliefs that 
we termed ``unnecessary'' in that regard, that the State does 
not need to collect that, so it is prohibited in that policy.
    Mr. Heck. What was it that informed your decision as to 
what would fall into that category of things determined to be 
unnecessary?
    Mr. Campbell. Well, it is a relatively small list, there 
may be one or two other things that are not coming to the top 
of my head. It was things that are not going to directly impact 
the measurement of a student's educational progress and 
success, so we did not think it was necessary for the State to 
collect that. But, you know, there are instances of things 
about ethnicity or income for reporting purposes that are 
required by other State or Federal laws, so that we can 
disaggregate data and report on how students of different 
ethnicities are succeeding in school.
    It was really about things that would not be necessary 
educationally.
    Mr. Heck. Things that would not actually be an indicator of 
student achievement or success or impact on their education 
were excluded from the data collection tool?
    Mr. Campbell. Correct.
    Mr. Heck. Thank you. Mr. Swiggum, in yours, you mention 
that if any new data is required to be collected, you are 
required by State law to post the purpose of the collection for 
public comment and to report any new data collections to the 
governments and legislative offices.
    Have you actually had to do that as yet, where you had to 
post a new item for public comment? And if so, how did that go 
and what was the outcome?
    Mr. Swiggum. So, the law was passed last year, and it is 
implemented this July. We actually have not formally had to do 
it, but we have actually had one new data collection that we 
have actually posted out there just to see how the process is 
going to work. We have not gotten any feedback from it yet, but 
it is a relatively new process, but it does go into effect this 
July.
    Mr. Heck. How will the public or the parents know that the 
new collection is up and available for public comment, so that 
they have the opportunity to voice their opinion?
    Mr. Swiggum. It goes out to the DOE website, and then it 
also goes out to the districts for them to disseminate it 
however they feel best for their district area.
    Mr. Heck. Thank you. Thank you, Mr. Chair. I yield back.
    Mr. Rokita. I thank the gentleman. The gentleman yields 
back. The gentleman from Tennessee, Dr. Roe, is recognized for 
5 minutes.
    Mr. Roe. Thank you, Mr. Chairman, and just very quickly, 
first of all, I can see you, that is wonderful. Everybody has 
left.
    It looks like what we are trying to say is how much privacy 
do we need to have, and does the data that we collect actually 
help us get to a different point, a different end? And I guess 
I will quote one of my favorite philosophers, Yogi Berra, if 
you do not know where you are going, you might end up someplace 
else.
    To give you an example, I just read more data riding on the 
airplane, the SCORE Report from Tennessee on education. To Dr. 
Hannaway's point, if you look at ACT scores, if you look at 
Massachusetts, they are the highest in the country. You compare 
them to Tennessee, we do not look very good. The only problem 
is 100 percent of juniors take it in Tennessee and 23 percent 
of students, which are obviously the highest performers, take 
it in Massachusetts. You would draw a wrong conclusion with 
that data.
    I think data is important. We have used it in Tennessee to 
improve where we are in our outcomes.
    The real question is--I guess I will start with Ms. 
Stickland, from your work with the Parent Coalition for Student 
Privacy, have you run across any States or even school 
districts that have actually done this right, informed parents 
and so forth, or is there a place we do not have to reinvent 
the wheel?
    Ms. Stickland. What I would say is there is some good State 
laws that have been presented in the last couple of years, and 
there are some good district policies. I do not think we have 
ever found one that we felt was 100 percent solid, but there 
are good examples.
    For instance, there is the directory information exception 
that parents can opt out of their children's directory 
information to be released, and there are some districts who 
offer a menu approach, right. You do not have to necessarily 
say--a lot of times directory information includes your child's 
picture in the yearbook. Most reasonable parents want their 
children's picture in the yearbook but they may not want it 
sold to marketers.
    There are good examples out there, and I would be happy to 
follow up with you on some that we have found so far.
    Mr. Roe. I do not want in there when Coach Morgan, when I 
was in ninth grade basketball, bent me over and paddled me for 
something I did, which he did, and he got my attention with 
that, but I would not want the world to know about it, and now 
they do.
    The other question I have, and anyone can pick this up, and 
I guess, Mr. Swiggum, what are the most common concerns you 
hear from parents about protecting their child's privacy? What 
do you hear from the public?
    Mr. Swiggum. Primarily what I hear about protecting a 
child's privacy is when they read something in a blog and it 
basically scares them, and it is like are you really doing this 
with my child?
    The latest one that I got was probably six months ago, a 
letter from a parent who was concerned that we had installed 
wires in the chairs of where their kids were sitting, and this 
electronically transmitted something to the State about how the 
child was taking a test.
    Obviously, we do not do anything like that, but those are 
the types of questions I typically get, are you really doing 
this, and the answer is no, we do not do stuff like that.
    That is where most of those privacy questions come from.
    Mr. Roe. It is a real balancing act. Dr. Hannaway is trying 
to perform accurate academic research that we can use to 
improve outcomes. I think that is clearly what we are trying to 
do, and yet if she does not get the data that she needs, as I 
pointed out to begin with, the conclusions are erroneous and 
they are worthless. As a matter of fact, they are worse than 
that. You may do something that may actually harm what you are 
doing with bad data.
    It is a real challenge what you all have presented today, 
and I appreciate you coming here to protect people's privacy, 
which they want, and believe me, I think the government has too 
much information. If you have ever filled out a Census packet, 
you certainly understand the information that is in that, that 
is basically public.
    With that, I have no further questions. I yield back.
    Mr. Rokita. I thank the gentleman for yielding. The 
gentleman from Indiana, Mr. Messer, is recognized for 5 
minutes.
    Mr. Messer. I thank the chairman, I thank those testifying, 
and the committee for the work on this important issue. As has 
been talked about over and over today, the innovations and 
improvements to educational outcomes that come from technology 
are important, and we want to keep them and maintain them, and, 
at the same time, it is important that we protect our kids and 
help parents in protecting their kids as we reach the 
improvements, educational improvements that are coming from 
technology.
    Today, we have talked a lot about the importance of 
educational research and the role it plays in protecting 
student privacy. It is an important conversation.
    I would like to ask a slightly different question to those 
on the panel. It is about the role education technology vendors 
play in protecting student data and our students. I have worked 
a little with Ms. Stickland on that subject.
    I guess I would start with you about any advice or counsel 
you would have on the important role vendors play in protecting 
our students. What should we do about them?
    Ms. Stickland. Thank you for the question. What I would say 
is we need them to be good partners in this venture together. I 
think they need to be amenable to adjusting their contract 
provisions with school districts. We have some vendors out 
there who simply will not, it is sort of a take it or leave it 
environment. If you want our services, you can accept our terms 
or you can walk away.
    What that does to school districts is put them in a 
position of moving forward with these products while not 
protecting student privacy, and oftentimes, obviously when in 
circumstances like these, maybe the products are free and then 
children are paying with their privacy because there is no 
monetary exchange with the districts.
    I think we need them to be good partners, and to do that, I 
do believe we need strong legislation.
    Mr. Messer. Mr. Swiggum, I saw you nodding or had some 
feedback, any thoughts or comments?
    Mr. Swiggum. I think we could learn a lot from looking at 
how our researchers handle their data. I think the vendor world 
is the new frontier. It is constantly evolving, constantly 
changing.
    It is very hard to keep up with all that, but if you look 
at how the researchers--I think Dr. Hannaway has mentioned this 
many times--they have a very set process on how things are 
going to be done, how you are going to handle it, the security, 
the deletion. If we had vendors following some of that same 
procedures, I think we would be much better off.
    Mr. Messer. Do you think they are likely to do that in the 
absence of some law or requirement?
    Mr. Swiggum. I do not think they all do it now.
    Mr. Messer. Yes, I think that is right. Ms. Hannaway or Mr. 
Campbell, any comments or thoughts?
    Ms. Hannaway. My only comment, I think this high technology 
input to education is extremely important, and I think it 
therefore behooves us to think through how to set up systems, 
like the systems that are set up for the administrative data, 
so that these data can be made available to objective 
researchers, because I am sure that the vendors themselves are 
doing their own research in order to develop their product.
    If public money is going to be spent on this, there should 
be objective researchers also looking at these data, and that 
requires that these data become anonymized in some way.
    Mr. Messer. Well, frankly, my fear is that if we have a 
catastrophic act, something really bad happens, parents all 
across America will cry out to have this stopped. I think it is 
very important we get the standards right and we act now before 
that event occurs, so that we end up keeping technology in the 
classroom and getting all the positive outcomes that come with 
that while at the same time protecting our students.
    Mr. Campbell, did you want to add anything?
    Mr. Campbell. I think everyone has a role to play in 
protecting privacy, and appreciate the chance to have worked 
with your staff on the bill that you and Representative Polis 
introduced, and the leadership that you showed in encouraging 
industry to take this seriously. I think that contributed to 
the hard work that was done on creating the student privacy 
pledge.
    I think industry would benefit from clear expectations, and 
a number of States are moving in that direction, about 
protecting student data and particularly when it is information 
that is identifiable. There may be reasons for them to have 
completely anonymized data that will help them improve their 
products, but they should be deleting, returning to districts, 
purging identifiable information on a much shorter time frame, 
which makes any information they have less valuable and less 
risky.
    Mr. Messer. Thank you, Mr. Campbell. I see my time is about 
to expire. I should say I appreciate the vendors that did sign 
on to the pledge. I think it is important. It is showing there 
are some out there that are acting very responsibly with this 
data. Of course, not all vendors have. Many more have not than 
have. That is why I think we need to work on broader 
legislation.
    I applaud the work of the chairman and others on this bill. 
It is important that schools and higher education institutions 
play their role in protecting student data, researchers, too, 
and then the private industry that works with these kids as 
well. Important work. I thank the chairman for his time.
    Mr. Rokita. I thank the gentleman. The gentleman's time has 
expired. I will now take a few minutes to ask some questions as 
well.
    Of course, this is a very important subject. I thank all of 
you for your testimony. It is going to help us as we move 
forward with this improvement.
    For purposes of the record, I want to follow up on a couple 
of things, perhaps add to the record, clarify the record, or 
reiterate the record, depending on the case.
    Dr. Foxx asked what parents should know about the education 
record, and I want to follow up on that by asking what role 
parents should have in determining how that information is 
shared. I do not know if that was discussed. Ms. Stickland, I 
will go with you first.
    Ms. Stickland. I am sorry. The question is what is the 
parents' role in deciding how that information--
    Mr. Rokita. Yes, what is the best practice? If transparency 
is the goal, an informed parent is a good parent to help with 
the process. And in all the different roles we have to play, 
Mr. Campbell, what is the best practice for informing parents? 
What should their role be in determining that practice?
    Ms. Stickland. Well, I think once parents are educated on 
what is happening with the transparency piece, so they 
understand what data is being used, how it is being used, with 
whom it is being shared. I think then you will have a very 
supportive stakeholder group who would appreciate the 
opportunity to be part of the decision-making process.
    Mr. Rokita. So it drives itself.
    Ms. Stickland. Yes. There is nothing more frustrating than 
being marginalized as a parent when we have legitimate 
concerns.
    Mr. Rokita. You would not suggest there is any best 
practice or model that should be codified in Federal law?
    Ms. Stickland. I would love to research that for you and 
get back to you, but I do not have anything off the top of my 
head.
    Mr. Rokita. Okay. Thanks. Just for the record, you are not 
aware of data records being sold?
    Ms. Stickland. From the SLDS?
    Mr. Rokita. Yes.
    Ms. Stickland. Specifically? I am not aware of any SLDS 
records being sold, no.
    Mr. Rokita. Thank you. Ms. Bonamici had a question, and I 
think you answered it perhaps as a researcher or some of the 
researchers have answered as a researcher, but I want to be 
sure we get the gist of the question as I took it.
    Do you see harm to students, especially at the higher 
education level, if we cannot guarantee student privacy in 
seeking medical help or reporting incidents of assault?
    Ms. Stickland. I think student privacy should be employed 
in every regard. I think there are no instances where students 
should be in control and have ownership of their data, so yes, 
I believe FERPA should be extended to cover situations such as 
these and protect students, maximally.
    Mr. Rokita. You mentioned States had a lot of good law and 
perhaps best practices. Do you want to go on the record and 
cite any States, whether in regard to student assaults or 
anything, that we should look at?
    Ms. Stickland. With regard to student assaults, I am afraid 
that is just not an area of my expertise.
    Mr. Rokita. Anything else, any other States or policies you 
want us to focus on?
    Ms. Stickland. There are certain States that address some 
of the vendor community issues. California, while I think that 
could be improved certainly, it is a very, very good start. 
There is a bill being introduced in Alabama this year that 
addresses some of our concerns about SLDS. I am not sure where 
it is in its process right now. Those are two bills that kind 
of address those two separate issues.
    Mr. Rokita. Thank you. Mr. Campbell, you were nice enough 
to mention the bill that Ms. Fudge and I filed, the Student 
Privacy Protection Act, and the additional penalties we include 
there.
    Do you think the requirement for the written agreement to 
clearly outline the use and access of data will help limit the 
misuse? If so, how? Does it not depend on the written word?
    Mr. Campbell. Yes. The information about the written 
agreement, I think it is one of those things that in an ideal 
world, it is yes, of course, there should be a written 
agreement, but executing that in 15,000 local education 
agencies and all the requirements in there can introduce the 
concern of burdening capacity for districts to be able to do 
that effectively.
    We had in our development of the model policy at the State 
level active discussions with many organizations about 
approaches that were taken, and actually, California passed 
both, had contract requirements and direct regulation in 
separate bills, but each passed. I think there is overlapping 
and sort of potential redundancy there.
    Our eventual approach was to rely on direct regulation to 
make clear the requirements for the service providers working 
with schools, and if there is a clause about written 
agreements, I think it is really important to think about what 
is required to minimize burden and make sure districts are all 
able to implement that successfully.
    Mr. Rokita. Thank you. My time has expired. I will 
recognize Ranking Member Scott for his closing remarks.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Chairman, we have 
heard that we can effectively use student data to improve 
education policy. Of course, any time that you are gathering 
data, there is a risk that student and family privacy may be 
compromised.
    Today's hearing has exposed several issues we have to 
consider in legislation, such as the effect of the validity of 
research, if some students opt out, we heard the gentleman from 
Tennessee point out that if one State was testing 100 percent, 
and another State is testing 23 percent, presumably the best 23 
percent, obviously, the conclusions would be much different.
    We also heard about the issues such as sanctions for 
privacy violations committed by vendors and the prohibition 
against the use of student data for marketing. We do know that 
significant improvements in the quality of education can take 
place if data is properly used.
    Insofar as we have bipartisan legislation already before 
the committee, I am confident that we will be able to pass 
legislation to update the Education Science Reform Act and the 
Family Educational Rights and Privacy Act in such a way that 
maximizes the available use of student information, to improve 
education policy, without jeopardizing student and family 
privacy.
    I look forward to working with Chairman Kline and members 
of the committee as we did with the Every Student Succeeds Act 
late last year, and the reauthorization of the Older Americans 
Act, which we did yesterday. I yield back.
    Mr. Rokita. I thank the gentleman for his remarks. In my 
closing, I would like to reference the fact that I promised 5 
or 10 seconds to answer a question that Ms. Clark had when she 
ran right out of time. I do not know if it was to Dr. Hannaway 
or who, or if we even remember the question at this point. I do 
not think we do.
    It has been a great hearing. It has been an exhausting 
hearing. I am going to close us out now, but again, I want to 
thank our witnesses for your excellent, excellent testimony, 
for your patriotism, for caring about our best asset, which is 
our children, for doing it in an objective way, and I have a 
million of questions on the meaning of the word ``objective,'' 
and we will get to that at another hearing.
    Clearly, I want the record to reflect that the witnesses 
before us were all here in good faith with expert information, 
and it gives this particular subcommittee chairman confidence 
that this is being done, even with the limitations of an old 
law, being done in the best way humanly possible, and I look 
forward to working with you all as well as every member of this 
committee to bring us up to the 21st century.
    With that, seeing no further business in front of the 
committee, we are now adjourned.
    [Whereupon, at 12:16 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
